<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                       ENERGY AND WATER DEVELOPMENT
                         APPROPRIATIONS FOR 2017

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION

_________________________________________________________________________

               SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT

                   MICHAEL K. SIMPSON, Idaho, Chairman

  RODNEY P. FRELINGHUYSEN, New Jersey		MARCY KAPTUR, Ohio
  KEN CALVERT, California			PETER J. VISCLOSKY, Indiana
  CHARLES J. FLEISCHMANN, Tennessee		MICHAEL M. HONDA, California
  JEFF FORTENBERRY, Nebraska			LUCILLE ROYBAL-ALLARD, California
  KAY GRANGER, Texas
  JAIME HERRERA BEUTLER, Washington
  DAVID G. VALADAO, California

NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

           Donna Shahbaz, Angie Giancarlo, Loraine Heckenberg,
                    Perry Yates, and Matthew Anderson
                             Staff Assistants

                     ___________________________________

                                  PART 7

                           DEPARTMENT OF ENERGY

                           Secretary of Energy
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           

                     ___________________________________

          Printed for the use of the Committee on Appropriations







    

                       ENERGY AND WATER DEVELOPMENT
                         APPROPRIATIONS FOR 2017

_______________________________________________________________________

                                  HEARINGS
 
                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION

                    _________________________________

               SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT

                   MICHAEL K. SIMPSON, Idaho, Chairman

  RODNEY P. FRELINGHUYSEN, New Jersey		MARCY KAPTUR, Ohio
  KEN CALVERT, California			PETER J. VISCLOSKY, Indiana
  CHARLES J. FLEISCHMANN, Tennessee	        MICHAEL M. HONDA, California
  JEFF FORTENBERRY, Nebraska			LUCILLE ROYBAL-ALLARD, California
  KAY GRANGER, Texas
  JAIME HERRERA BEUTLER, Washington
  DAVID G. VALADAO, California

  
NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

           Donna Shahbaz, Angie Giancarlo, Loraine Heckenberg,
                    Perry Yates, and Matthew Anderson
                             Staff Assistants

                  ___________________________________

                                  PART 7

                           DEPARTMENT OF ENERGY

                           Secretary of Energy

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                  


                ___________________________________

          Printed for the use of the Committee on Appropriations

                  ___________________________________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  20-704                     WASHINGTON: 2016


 
                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey		NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama			MARCY KAPTUR, Ohio
  KAY GRANGER, Texas				PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho			JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas		        ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida			DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas			        LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California			SAM FARR, California	
  TOM COLE, Oklahoma				CHAKA FATTAH, Pennsylvania		
  MARIO DIAZ-BALART, Florida			SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania			BARBARA LEE, California
  TOM GRAVES, Georgia				MICHAEL M. HONDA, California
  KEVIN YODER, Kansas				BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas			STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska			TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida			C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee		DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington		HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio				CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California			MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland				 DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

  
                William E. Smith, Clerk and Staff Director

                                   (ii)

 
 ENERGY AND WATER DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2017

                              ----------                            

                                            Tuesday, March 1, 2016.

                          DEPARTMENT OF ENERGY

                                WITNESS

HON. ERNEST MONIZ, SECRETARY, DEPARTMENT OF ENERGY
    Mr. Simpson. The hearing will come to order. We have a lot 
to discuss today, so I will keep my remarks brief. The 
President's budget proposes numerous spending gimmicks to avoid 
the discretionary budget caps established by the Bipartisan 
Budget Act. I think it is unlikely that any of these gimmicks 
can be enacted. While, in some cases, that is fine, since the 
funding proposed is for the Presidential initiatives of an 
administration in its final year; in other cases, important 
activities will be drastically curtailed and hundreds of jobs 
could be lost if this committee does not budget for these 
funding needs.
    Equally disappointing is that, even with the $747 million 
increase in your budget request, the budget funds 
administration priorities at the expense of nuclear and fossil 
energy--accounts that can help secure our Nation's energy 
security both now and in the future. And while the Mission 
Innovation initiative claims to advance all clean energy 
solutions, even the most casual review of the budget indicates 
that the new funding is intended almost entirety for EERE.
    We will need to use the hearing process to conduct careful 
review of the entire request so that we can construct a budget 
that provides a true ``all-of-the-above'' strategy.
    Secretary Moniz, I look forward to your testimony today and 
further discussions on all of these items. Please ensure that 
the hearing record questions for the record and any supporting 
information requested by the subcommittee is delivered in final 
form to us no later than 4 weeks from the time that you receive 
them.
    Members who have additional questions for the record will 
have until close of business Thursday to provide them to the 
subcommittee office.
    Mrs. Lowey.
    Mrs. Lowey. I guess Mr. Rogers is on his way? Thank you.
    Mr. Simpson. Mr. Rogers is on his way, and Ms. Kaptur is on 
her way also.
    Mrs. Lowey. Well, thank you very much, Mr. Chair.
    And welcome. It is really a pleasure, Secretary Moniz. I 
thank you for coming before this subcommittee.
    The Department of Energy plays a critical role in America's 
national security and economic prosperity. Its focus on 
research, development, deployment of clean energy, efficient 
technologies makes the Department a leader in scientific 
innovation, job growth, and the battle against climate change.
    Mr. Secretary, your budget request for $30.2 billion in 
discretionary spending, an increase of $747 million from the 
fiscal year 2016 enacted level would fund robust investments in 
major initiatives that provide the foundation for the domestic 
energy revolution in our Nation and help better prepare for our 
future energy needs.
    It is critical we take real steps to address climate 
change. The science is conclusive: human activity is 
contributing to a change in the world's climatic patterns. And, 
unfortunately, those who still doubt the science refuse to act 
to prevent further damage to our global ecosystems and 
environment.
    Investing in clean energy saves money down the line by 
mitigating the impact climate change will have on our Nation 
and the world. That is why the Department of Energy's focus on 
clean energy, including carbon capture technology, is so 
important.
    Additionally, I appreciate your efforts during the 
negotiations of the Joint Comprehensive Plan of Action with 
Iran, and I know we agree that Iran must never be permitted to 
develop nuclear weapons. Today, I look forward to hearing your 
assessment of Iran's compliance to date, the IAEA's 
verification safeguards, and inspectors' access to key sites 
throughout Iran.
    Lastly, as domestic energy production has steadily 
increased, so has the frequency of trains carrying crude oil 
through communities in my district. Everyday, upwards of 80 
rail tank cars carry highly volatile Bakken crude oil through 
Rockland County, New York, endangering homes, schools, and 
businesses near the tracks. While progress is being made on the 
safe transport of crude oil, we need to act faster to guarantee 
the security of Americans who live near America's extensive 
railways. I look forward to hearing about the progress 
Department of Energy has made in studying the characteristics 
of crude oil and methods to reduce volatility prior to and 
during shipment.
    Mr. Secretary, I thank you for your service and look 
forward to your testimony.
    And I thank you, Mr. Chairman.
    Mr. Simpson. Thank you.
    And when Chairman Rogers and Ms. Kaptur arrive, we will 
allow them to make their opening statements.
    Mr. Moniz, Secretary, go ahead.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Secretary Moniz. Thank you, Mr. Chairman, Ranking Member 
Lowey, and members of the committee. I appreciate the 
opportunity to talk here with you today about the DOE fiscal 
year 2017 budget proposal. The request totals $32.5 billion, an 
increase of $2.9 billion, or 10 percent, from the fiscal year 
2016 appropriations. But, unlike previous budgets, the fiscal 
year 2017 budget has three major components.
    First, a request for annual appropriations totaling $30.2 
billion, an increase of 2 percent above the fiscal year 2016 
enacted appropriation. And I note that both the national 
security appropriations request and the total domestic 
appropriations request would each be a 2-percent increase in 
appropriated funds. It is supplemented by a request totaling 
$2.3 billion in new mandatory spending. These requests are 
under the jurisdiction of the authorizing committees but are 
integral to our appropriations funding. It includes $750 
million for R&D and $674 million for uranium enrichment D&D, to 
which we will return.
    Turning to the major mission areas, the first going to the 
science and clean energy mission. This totals $11.3 billion in 
appropriations funding; $1.6 in the new mandatory. The 
fundamental driver for the science and energy budget is Mission 
Innovation, for the increase. I will return to this initiative 
in more detail in a moment.
    Second mission area, ensuring nuclear security, the fiscal 
year 2017 budget includes $12.9 billion for NNSA, a 3-percent 
increase with three broad programmatic objectives: maintaining 
a safe, secure, and effective nuclear weapons deterrent without 
nuclear testing now and well into the future; reducing the 
threat of nuclear proliferation, including support for 
implementation of the Joint Comprehensive Plan of Action, 
referred to by the ranking member, and proposing a major shift 
in our plutonium disposition strategy; and, third, supporting 
the safe and reliable operation of our nuclear Navy.
    Our third major mission area, organizing, managing, and 
modernizing the Department to better achieve its enduring 
missions, the fiscal year 2017 request provides for $6.8 
billion for these activities, including $6.1 billion for the 
Office of Environmental Management, $300 million above the 
fiscal year 2015 enacted and fiscal year 2016 request levels, 
but roughly $100 million below the fiscal year 2016 enacted 
level.
    The $6.1 billion budget includes $5.45 billion in new 
appropriations and a proposal to authorize $674 million in new 
mandatory spending authority from the USEC fund. The $1.6 
billion USEC fund is an existing--not new--mandatory spending 
account, and our proposal is in keeping with the spirit of the 
current authorization that revenues from the beneficiaries of 
past uranium enrichment services, rather than taxpayers at 
large, be used to pay the cost of D&D of the now shuttered 
facilities. The USEC fund is one of three Federal funds 
totaling nearly $5 billion that can be used in this manner.
    Finally, I want to acknowledge that underpinning all of 
these priorities is stewardship of the Department as a science 
and technology powerhouse for our Nation with an unparalleled 
network of 17 national laboratories harnessing innovation to 
successfully address national security, boost manufacturing 
competitiveness, mitigate and adapt to climate change, and 
enhance energy security. We are working hard to strengthen 
these strategic relationships between the Department and our 
national laboratory network.
    I also want to highlight the crosscutting R&D initiatives 
in the budget. Among these, our largest increase is for grid 
and modernization, which we increase by $83 million to $378. As 
part of this initiative, the Grid Modernization Lab Consortium 
will accelerate the pace of innovation in this area. Our second 
largest crosscut increase is for the energy and water nexus 
initiative, which we increase by $68 million to $96 million.
    The supporting budget details for each of these areas are 
provided in a 40-page statement for the record that previously 
had been submitted to the committee, and I request that it be 
inserted into the record.
    Mr. Simpson. Without objection.
    [The information follows:]
    Secretary Moniz. Thank you.
    Now, turning to our Mission Innovation and why we believe 
it certainly merits the support of this committee and the 
Congress, within the total science and energy budget, we have 
identified the subset of clean energy research and development 
described as Mission Innovation. The fiscal year 2017 budget 
includes $5.86 billion in appropriations funding, an increase 
of 21 percent for clean energy R&D activities that support the 
U.S. Mission Innovation pledge, and that pledge made with 19 
other countries is to seek to double public support for clean 
energy research and development over a 5-year period. The 
Mission Innovation countries represent over 80 percent of 
global government investment in clean energy R&D, so this is 
leveraging a major investment, increase in investment, in 
energy technology innovation.
    We believe Mission Innovation is long overdue. In 2010, the 
American Energy Innovation Council, comprised of CEOs from 
multiple U.S. business sectors, recommended that the government 
triple its investment in clean energy R&D. The council made 
three key points, and I will quote: ``First, innovation is the 
essence of America's strength. It has been our Nation's 
economic engine for centuries. Second, public investment is 
critical to generating the discoveries and inventions that form 
the basis of disruptive energy technologies. Private companies 
cannot capture the full economywide value of new knowledge and, 
thus, systematically underinvestment in research and 
development relative to the benefits it produces. And, third, 
the costs of RD&D are tiny compared with the benefits. But 
today's investments are simply too small. They will not offer 
an expanded range of economic security and environmental 
options in the future.''
    That concludes the statements from the AEIC.
    Now, the pledge to seek to double the level of government 
investment over 5 years is ambitious but needed. Bill Gates, 
who was a leader of the AEIC, has recently met with a number of 
Members of Congress and has reiterated publicly the need for 
greatly increased government-sponsored energy R&D. The 
objective of Mission Innovation is to greatly expand the suite 
of investable opportunities in clean energy technologies needed 
to support economic growth and competitiveness; strengthen 
energy security; increase access to clean, affordable energy; 
and enable the global community to meet environmental goals.
    The scope of Mission Innovation spans the entire innovation 
cycle from the earliest stage of invention through initial 
demonstration with an emphasis on growth in early stage R&D. 
Mission Innovation also includes all clean technologies, 
renewables, energy efficiency, nuclear and coal, with carbon 
capture. Mission Innovation is complemented by the Breakthrough 
Energy Coalition, an independent initiative launched 
simultaneously with Mission Innovation. The coalition is 
spearheaded by Bill Gates and includes 28 investors from 10 
countries, another major leveraging opportunity. The coalition 
is committed to providing investment in new technologies 
originating from the innovation pipelines in the Mission 
Innovation countries with the intent of taking these 
opportunities from early stage R&D through ultimate market 
deployment. These investors are committed to higher risk 
tolerance and patience for returns on their capital than 
compared to normal investors, usual investments, but also 
combined with a willingness to take the most promising 
innovations all the way past the finish line to deployment.
    The fiscal year 2017 budget proposal of $5.8 billion 
represents a 21-percent increase, as I said earlier, above 
fiscal year 2016, a critical first step in a 5-year doubling 
pathway. This increase will support, again, a broad-based 
portfolio of new initiatives and expanding existing across all 
DOE science and energy technology program offices and spanning 
six separate appropriation accounts under the subcommittee.
    In particular, I want to single out the fiscal year 2017 
budget proposal for $110 million to establish Regional Clean 
Energy Innovation Partnerships. We propose to establish up to 
10 regional partnerships as not-for-profit consortia 
competitively selected to manage regional clean energy R&D 
programs focused on the energy needs, policies, resources, and 
markets of the individual regions. The program design and 
portfolio composition for each partnership will be based on 
regional priorities. As research portfolio managers, not 
performers, the partnerships will connect resources and 
capabilities across universities, industry innovators, 
investors, and other regional leaders to accelerate the 
innovation process within each region.
    This approach tracks recommendations from the National 
Research Council's ``Rising to the Challenge,'' which noted 
that, quote: ``Until very recently, U.S. Federal agencies have 
done little to support State and regional innovation cluster 
initiatives. This is not the case abroad. Clusters have been 
embraced globally as effective vehicles for mobilizing and 
coordinating public and private activities to spur economic 
growth'' end of quote.
    To address these growing global challenges and enhance the 
competitiveness of local and regional economies in our country, 
the NRC recommended that regional innovation cluster 
initiatives by State and local organizations should be assessed 
and, where appropriate, provided with greater funding and 
expanded geographically, and that is what we are proposing.
    The fiscal year 2017 budget also supports 
increasedinvestments in successful ongoing innovation programs, 
including initiatives with the national laboratories supported in 
previously appropriations acts. These include: ARPA-E, Energy Frontier 
Research Centers, advanced manufacturing centers, bioenergy centers, 
advanced transportation technologies, advanced nuclear reactor 
technologies, and next-generation carbon capture technologies, to name 
a few.
    Finally, I would just highlight the overall budget for the 
DOE Office of Science, which is the largest Federal sponsor of 
basic research in the physical sciences and a major driver of 
discovery science, supporting more than 24,000 investigators 
and over 300 U.S. academic institutions and our laboratories. 
The fiscal year 2017 budget provides $5.67 billion for science, 
an increase of $325 million, or 6 percent; $5.57 billion is 
requested as appropriations funding, and $100 million is 
proposed as new mandatory spending authority to support a 
competitive grant program for university researchers that can 
open up new directions for the Office of Science. Some of the 
use-inspired research programs within the Office of Science, 
like EFRCs, are counted in the Mission Innovation pledge.
    That concludes my summary. Thank you for your patience. 
And, in closing, I want to thank the subcommittee, again, for 
its interest and its support, and I look forward to our 
discussion. Thank you.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
          
    Mr. Simpson. Thank you, Mr. Secretary.
    Ms. Kaptur, do you have an opening statement you would like 
to make?
    Ms. Kaptur. Thank you, Mr. Chairman, very much. I thank you 
for your courtesy and say to the Secretary: I am sorry I wasn't 
here for your full testimony; I had a truly conflicting event. 
But I thank you, Mr. Chairman, and thank you, Secretary Moniz 
for being here today and for your exemplary leadership.
    Secretary Moniz. Thank you.
    Ms. Kaptur. In recognition that this may be your last 
appearance at this hearing, although no matter who wins in 
November, I think they would be very well served by keeping you 
on.
    I would like to recognize the exceptional job----
    Mrs. Lowey. He is shaking his head.
    Mr. Simpson. Is that a no?
    Ms. Kaptur. Your family may not agree, but I am your chief 
lobbyist. I will tell you that.
    Secretary Moniz. Correct about that.
    Ms. Kaptur. I would like to recognize the exceptional job 
you have done at the Department of Energy and in service to our 
country. It has been a pleasure to work with you. Too few 
Americans realize just what an enormous energy revolution is 
happening around our world, but it is a credit to your work and 
concerted effort at the Department, as well as those who filled 
your position before you, all the way back to President Jimmy 
Carter, who created your Department. Americans who saw the need 
for our country's energy independence and what could happen if 
we didn't pay attention to fundamentals on energy supplies to 
our people.
    Please, let me present two charts that make it clear how 
far America has come toward restoring an independent energy 
America. And I hope that all of my colleagues have this. But as 
you can see, between 2008 and 2014, the amount of crude oil we 
produce here at home has increased by 50 percent, while our 
dependence on OPEC has been cut almost in half. This is an 
extraordinary achievement in energy security for our country. 
We in the world will have to adjust to these positive trends.
    America's long-term commitment to science and basic energy 
research has really started to yield results that matters 
strategically and economically. And I am very pleased to see in 
your budget request a significant push toward increasing 
research and specifically toward ARPA-E's funding. I also note 
how pleased I am about the private-public partnership, the 
dynamic relationship that you are building through Bill Gates' 
Mission Innovation initiative. As Mr. Gates has become fond of 
saying, if we are going to truly tackle climate change, we need 
an energy miracle, and that miracle can only be possible with 
continued large investments in the highest level research that 
I know our people are capable of.
    I am specifically interested in hearing from you today 
about the Department's work in energy storage and distributed 
generation as well as--and you addressed this a bit--the 
energy-water nexus and the, also, energy-water food nexus, 
which people are talking about more and more, as well as 
efforts toward grid modernization and, obviously, upgrading our 
nuclear capacities. Now, as great as this American energy 
revolution is for the climate, our economy, and for our 
national security, we must not forget that when a dynamic 
economy--a dynamic economy can only grow through innovation. 
And many of my colleagues like to point out the fact there are 
now more Americans working in the solar industry than there are 
in the coal industry.
    I am pleased to put on the record the company in my region, 
First Solar, that is truly a leader in photovoltaic--I thank 
you, Secretary visiting there personally--a company based on 
technologies of the future.
    While we are encouraging new industries, it is vital that 
we don't forget about the people who are losing their jobs 
across our country in this transition and to think forward with 
them. Beyond the miners in Ohio, West Virginia, and Kentucky, 
there has also been the women who work on the coal trains and 
in the coal plants and on the docks, who ship coal, who are 
struggling. Economists like to say that markets will adjust and 
capital will go toward its best use, but human capital is not 
quite as flexible. When people have worked hard in one industry 
for generations, they can't just snap their fingers and adjust 
to another job. So I think it is important for all of us to 
remember and to respect their hard work, and America simply 
must fashion a smoother pathway to energy transition for these 
workers who face job loss, healthcare loss, pension loss, and 
many times the loss of their homes. Surely, this country can do 
better than this.
    With that, I will close my remarks. I thank you, Mr. 
Chairman, again, and Mr. Secretary, for your remarkable work as 
well as for being with us today, and we look forward for the 
questions, and I thank my colleagues for their courtesy.
    Mr. Simpson. Mrs. Lowey.
    Mrs. Lowey. Question?
    Mr. Simpson. Yes.
    Mrs. Lowey. Thank you for your courtesy, Mr. Chair.
    And thank you, again, for your important testimony. I saw 
that smile when there was a question as to whether you would 
remain. We all do appreciate the service to your country. Thank 
you.
    Secretary Moniz. Thank you very much. I appreciate it.
    Mr. Simpson. That is a happy smile he is giving.
    Ms. Kaptur. Relief.
    Mrs. Lowey. Mr. Secretary, it has become increasingly clear 
that our Nation's electricity grid requires transformation to 
address reliability and security issues. This challenge was 
crystalized in the wake of Superstorm Sandy when more than 8.5 
million households and businesses--that is tens of millions of 
people--experienced power outages, and in some places, 
restoring power took weeks. This will be a monumental challenge 
given the grid is arguably the most complex and critical 
infrastructure in our Nation. I would be interested in your 
sharing with us the most pressing issues in securing the 
electricity grid that Congress should be addressing, in 
particular, should there be baseline standards to protect our 
electricity grid or better coordination between the public and 
private sector? The budget request includes funding for a grid 
institute to focus on technologies related to critical metals 
for grid applications. Why do you believe this is such a 
critical investment? Is it so important that it should displace 
other activities?
    Secretary Moniz. Thank you, Congresswoman Lowey. First of 
all, as I said in my opening remarks, we have emphasized a 
significant increase in grid funding precisely because of the 
importance that you have just described. Indeed, in our 
Quadrennial Energy Review published last April, which looked at 
all energy infrastructure, we noted that the grid had a special 
role because most of the other infrastructures require its 
operation for them to function. So that is one point.
    So, in terms of our challenges, I think we have several 
challenges. One, certainly, is modernizing the grid to include 
advanced technologies. The grid institute is one piece of that, 
by no means the only one. For example, we also have a 
manufacturing institute that was competitively awarded in North 
Carolina on what is called wide band gap semiconductors, 
another technology that is very critical for the kinds of power 
and electronics we need. We need to do a much better job 
integrating IT into the grid all the way from the distribution 
system, including going behind the meter into people's homes to 
allow much better energy efficiency programs all the way to the 
big grid that--in which we need to have early warning systems 
about problems, a program, by the way, that our Recovery Act 
funds did a lot to advance. So there is a whole set of 
technologies that we need to develop and deploy on the grid.
    Second, beyond the individual technologies, it is a big 
systems issue. It's all got to work together, obviously, 
especially the electric grid, because of its real-time nature. 
And to succeed there, ultimately--we are developing in our 
proposal--we would do a lot of tool development there as well, 
but then interfacing that with both the private sector and with 
the State regulatory authorities is absolutely critical.
    A third issue is we need to harden the grid against a bunch 
of risks. Some of those risks are weather. And, unfortunately, 
we anticipate more extreme weather with the warming. Some of 
those risks are things like cyber, where we have an extensive 
interaction with the private sector with utilities in terms of 
advancing cyber protection. And make no mistake about it: the 
attacks on the energy infrastructure from cyber are continuing 
to escalate.
    I will just mention on the hardening, I did visit, a month 
and a half ago, Florida Power & Light down in Florida where, of 
course, they have both wind and sea surge challenges, and it is 
impressive to see what is happening, actually, in terms of 
hardening the grid and taking every opportunity while hardening 
it to add intelligence at the same time.
    So that is kind of the picture. Ultimately, we want a grid 
that--oh, I should have added one more, because you mentioned 
Sandy. Another one is, in response to Sandy, with our 
laboratory Sandia in the State of New Jersey, we are, I think, 
out in front in terms of putting a rather large microgrid into 
the system to protect public safety in key transportation 
corridors while having that integrated into the larger grid.
    So there are many, many directions here, but they all aim 
to a--really, a complete modernization of the grid that will in 
some sense have, through more intelligence, be integrated all 
the way from the consumer all the way up to the high-voltage 
grid that you need to move, say, renewables over a large 
distance.
    Mrs. Lowey. I have one other question on a local issue, 
although it affects many communities. But I hope, Mr. Chairman, 
at some point, we can continue this discussion on 
cybersecurity, because I think this is what most of us fear the 
most.
    On oil produced in the continental United States, one out 
of every seven barrels is shipped by rail, and as a result, it 
is critical that the public regulators and industry understand 
the safety implications of such a vast quantity of volatile 
liquid moving through our communities. The omnibus included 2.7 
million for the Department to complete this second phase of the 
crude oil volatility study. Recognizing that the study is not 
complete, are there any conclusions you can share with us 
today, and when should we expect the final results? And do you 
believe there is followup work from the phase 2 study that 
would be valuable to our understanding the issue? If yes, what 
agencies shouldbe responsible for that additional work?
    Frankly, I look forward to your response and the continued 
work, because I have watched these trains come through right 
next to waterways. They haven't all modernized, so we hope they 
are moving in that direction. So I would be most interested in 
your commenting, responding to my question.
    Secretary Moniz. Thank you. One thing I would note, by the 
way, is that in one year, in the last year, there has been 
roughly a 20-percent decrease in the movement of oil by rail. 
So that trend has been a number of reasons, including 
additional pipeline infrastructure, but also some decreased 
production, for example, in--say, in the Bakken Shale in North 
Dakota. Nevertheless, 20 percent reduction is mined, but there 
is still 80 percent left, so we still need to address the 
issues that you have raised.
    I am afraid I have to say that the Sandia study, which is 
cofunded by DOE and DOT, will be still nearly a year in 
completion, including the physical combustion tests that remain 
to be done. So sometimes one can get impatient, but it is 
research, and it will be roughly a year.
    I think going forward, after that, the specific programs 
will depend upon the outcome, but I do emphasize that the 
partnership with DOT is very important. I mean, frankly, I 
think our Sandia lab in this case provides a lot of the 
technical oomph, but you would like that, then, to influence 
the regulatory responses. And, of course, that is where having 
a partnership really helps.
    So--but I am afraid it will be next--early next year before 
we can have the final results.
    Mrs. Lowey. Well, I look toward to hearing about them, and 
hopefully, there won't be any dangerous accidents before that 
time, because once it occurs and it affects our streams and 
rivers, as you know, I have been told that you just can't clean 
it up. So I thank you, and I look forward----
    Secretary Moniz. Well, it is expensive. It is expensive, 
certainly. But, also, of course, we have had a lot of--we had 
some time back now, fortunately, but considerable loss of life 
as well through these accidents.
    Mrs. Lowey. Thank you.
    And thank you, Mr. Chairman.
    Mr. Simpson. Mr. Valadao.
    Mr. Valadao. Thank you, Chairman.
    Welcome, Secretary Moniz. It is always a pleasure to have 
you here.
    Last year, I had an opportunity to tour Berkeley lab, and I 
was actually very impressed with a lot of the work they do, 
with specifically ag and drought-resistant crops, something 
that, obviously, has very close ties to my life and my 
district. So I appreciate the effort being put there. And I 
also want to thank you for your work improving the national 
user facilities, like those at Berkeley lab, to make them more 
networked, more efficient, and better able to capture 
scientific creativity.
    But my question specifically is, the President's fiscal 
year 2017 budget request includes 68 million, increases across 
several programs for the energy and water nexus. As you know, 
we are facing a historic drought, historical water and energy 
challenges in California, and as a farmer, I am well aware of 
the close connection between energy and water and understand 
that research could be helpful in coming up with some 
solutions. I would like to see the increase in research and 
development that provides solutions for California and the 
entire Nation. With many worthwhile programs, the committee is 
faced with difficult decisions regarding funding. My question 
is: Why should we fund the increase, and how will this research 
impact my district, State, and the Nation? And, more 
specifically to that, especially with the movement we see in 
anti-GMOs and a lot of the technology that goes into food 
production and the efficiencies that can be gained through 
those, are there real opportunities out there that the public 
will receive well coming from these labs? And how does the 
planned research leverage existing resources and expertise such 
as those in Berkeley lab?
    Secretary Moniz. Thank you. First of all, I would just 
note, though--well, thank you for the comments about Berkeley 
lab, and I am very pleased that you were able to visit. I would 
just note that today is the first day of the new director of 
the Berkeley lab. Paul Alivisatos was an outstanding director, 
and Michael Witherell is taking over today. So it is a big day 
at Berkeley.
    Two things. I mean, you mentioned, obviously, the impact 
upon crops and farming, and I would just note, quite apart from 
the energy water work, the very strong work in genomics going 
on in the Department, including at Berkeley, is quite important 
for looking at vital crops for a variety of purposes, 
including, of course, bioenergy, in our case, being an 
important one. The energy-water nexus, we think, is a 
tremendously important area, and that accounts for our 
substantial increase. I would note that I think it would have 
an impact--it could have an impact in terms of your State and 
your region quite substantially. For one thing, it will be 
looking at a lot of wastewater issues and the opportunity of 
reusing, recycling water in many contexts. It will be looking 
at--we have proposed a new hub for desalination. We will 
propose system studies about minimizing water use and tradeoffs 
between different approaches. We will be looking at, for power 
plants, things like dry--advanced dry cooling, trying to reduce 
the energy penalty in those. And I might also add--by the way, 
on the biology side, we also proposed a small program, a $10 
million biome project that would be looking at, essentially, 
the microbial communities associated with plants.
    But I would just also note--and this is very premature--
but, recently, last week, I spoke with Minister Steinitz from 
Israel, who as you know, Israel has a tremendously advanced 
water management approach for agriculture and for other uses. 
And I will be visiting there in early April, and we are talking 
about trying to maybe get a joint energy, water, food program 
going there. So that is just something that we are just tossing 
around. But that could be very, very interesting and certainly, 
they have tremendous experience and great, great technologies.
    Mr. Valadao. Mr. Secretary, the budget request proposes 190 
million for the exascale initiative within the Office of 
Science. Developing exascale computing represents the next 
technological lead in high-performance computing, but many 
challenges remain.
    What is the current timeline for developing an exascale 
system in the United States, and do you believe the Department 
will achieve that target? And where does the United States 
currently stand in relation to the international development of 
exascale systems, and what role do these computers play in 
protecting our grid and other types of technology?
    Secretary Moniz. The exascale initiative----
    Mr. Valadao. I am glad you are struggling with that word 
too.
    Secretary Moniz. I am struggling, because I think I need 
some water, is what I need.
    The exascale initiative, I should first note, is 190 
million in science and an additional nearly 100 million in 
NNSA. It is a joint project.
    The target for exascale is mid next decade to have a 
functioning system. As you said, there are many challenges, 
energy management being one of the great ones. What I want to 
emphasize is that we are always taking major steps, and right 
now, we are implementing something called CORAL at Oak Ridge, 
Oregon, and Livermore, which will, within a few years, be 
operating in, let's call it the 200 petaflop scale, so 0.2 
exascale region, and so that is already, you know, presenting a 
number of challenges we will have to address.
    And then we will go on to exascale, as I said. There are 
going to be very interesting challenges for various 
applications. Grid is one of them, big modeling of energy 
systems, but also, of course, our national security needs 
really depend upon these cutting-edge computers. I might say 
with Congressman Fleischmann in Oak Ridge, we recently renewed 
a major hub that simulates light-water reactors, looking at 
higher efficiency, more safety, et cetera, so many 
applications. But we are getting into a region now where--it 
certainly can't be thought of as simply a hardware challenge. 
There are machine learning issues. There are big data 
analytics, lots of issues in terms of how you manage the 
storage and the flow of information that is really a new 
frontier. So I think we are still, you know, 7 or 8 years away 
from exascale, but we will be a good chunk of the way there 
over the next 2 or 3 years.
    Mr. Valadao. All right. Thank you, Chairman.
    Mr. Simpson. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Secretary, on page 3 of your testimony, you reference 
transformational clean energy technologies for transportation, 
and you talk about intermodal freight and fleets. And, boy, I 
represent a lot of those in our region of the country. You 
don't specifically mention public fleets, and as you proceed, 
assuming the budget is approved, budget request is approved, I 
would hope that you would pay some attention to the fleets, for 
example, in our city public transit systems that are big energy 
users and probably short-changed in terms of new technology. 
Also, the postal service is a massive user of energy across 
this country. So I just wanted to mention that in reading--I 
don't expect any reply, but I did want to note the absence of 
those publicly.
    Secretary Moniz. One comment?
    Ms. Kaptur. Yes.
    Secretary Moniz. The comment I would make is that public 
fleets do have a very special role in what we are looking at, 
and one reason is that for public fleets, the issues of 
managing what you might call an alternative fuels 
infrastructure are relatively easier in other contexts, so they 
are an important focal point.
    Ms. Kaptur. I am moving to another topic.
    On the energy-water nexus, terms that I hear very carefully 
and with great deal of interest, with climate change, if you 
come to our region of the country, our fresh water region of 
the country, around the Great Lakes and U.S. and Canada, you 
will see unmet potential to save enormous amounts of energy in 
the four season canopies that actually raise a great deal of 
the fruits and vegetables that are consumed. Over the last, oh, 
100 years, 80 years, because California had special climatic 
conditions and certain availability of water, a lot of that 
fruit and vegetable production--in fact, over half of it--moved 
to the State of California from places like Ohio. And what we 
are finding is that because we have the water now, but we don't 
have necessarily the most modern production facilities, we need 
some attention here. And let me give you an example.
    Recently--and I want to put this on the record--a company 
from Canada, called Nature Fresh, located in Ohio, and they are 
building a 200-acre first wing of a production facility using 
the waste heat off of North Star Steel. So the CO<INF>2</INF> 
is going to come in and feed the plants. But even till today, 
with the so-called latest technology, a third to a half of the 
bottom line of these operations is energy. We simply have to 
perfect the material science, the energy science, and link it 
to very careful use of water and nutrients in these facilities. 
I think we could have a rebirth in the Great Lakes, and you can 
see it happen on the Canadian side. I am not quite sure why it 
is not happening completely on the American side at the same 
robust level. But if we could cut that energy cost, we could 
absolutely give rebirth. And we are much closer to markets, 
three quarters of the population of the country, and we don't 
have the heavy carbon footprint of moving all that across the 
country. So I just wanted to bring that to your attention.
    And one of our greatest impediments is that we are having 
trouble finding where the waste heat sources are for 
CO<INF>2</INF>. I don't know if anybody's got infrared shots or 
something on some satellite somewhere, but it would sure be 
nice to know where this waste heat exists so that we could 
focus it on this very important industry that is nascent, that 
could really green up in our part of the country. I think 
material science is important, because people look at 
conventional materials, but, actually, with light, you can 
raise--in a room like this, you can raise a lot of product in a 
room like this. So the energy equation on this one is really 
critical. And I know that members of your Department are 
thinking about this. The first reaction we got from Energy is: 
Oh, we can't look at that; that is agriculture. Take my word 
for it: the energy issue is not an agriculture issue. It is a 
Department of Energy issue, and the material science is a 
Department of Energy issue. So I am very, very excited about 
your energy-water nexus pathway here.
    And I also wanted to mention, and I know you have listened 
to us, but as we think about energy-water nexus, as you look 
across the Great Lakes, at our sewage treatment facilities, 
which have nutrients as an end product, and if you look at our 
water treatment facilities, they are mammoth energy users. For 
every city that I represent, Cleveland, Lorain, Sandusky, 
Toledo, if you look at the energy bill, it will blow your hat 
right off.
    And the question is, how can we link the energy water theme 
to helping these big cities save millions of dollars on their 
treatment costs for water and wastewater? What does the 
Department of Energy have to, offer in this regard? I just pose 
the question. I know you are open to it. You are open to all 
ideas that could help us on the energy front, and I would only 
challenge, as we think about grid and you come to older 
industrial communities where you have automotive, steel, rail, 
all these older treatment facilities--Flint, Michigan, being 
the most recent disaster that we had in the country on the 
water side--but if you look at these communities and say, what 
can the Department of Energy do there that is transformational? 
I don't have the answer, but I know there is something in your 
tool kit that if we fashioned it the right way and did some 
pilots around the country, where we could really help these 
places. And so when I think of energy-water nexus, I think 
about where people live and the systems that keep them alive 
through fresh water and our wastewater treatment. So I just 
wanted to put that on the record. Now, if you want to comment, 
please do. I don't expect an answer, just an openness.
    Secretary Moniz. Well, just a brief comment, because I 
share your enthusiasm for the energy-water challenge. As I 
mentioned already earlier, the whole issue around wastewater 
will certainly be an important part of what we are doing. The 
second point I want to make is that the energy and water 
discussion that we have generated at DOE has from the beginning 
been a multi-agency discussion. So partnering with other 
agencies on specific problems is certainly something that we 
intend, and the USDA, for example, could be one of those.
    The other point I would make, because I want to stay 
onmessage with one of my favorite themes, is the kind of energy 
efficiency opportunities that you raise in this kind of urban water 
context is a good example of what a Regional Innovation Partnership 
might focus on, because it is something that region, really thinks is 
important. And it is exactly one of our motivations that different 
regions will focus on different important problems that maybe others 
aren't thinking about in the same way. So in the upper Midwest, the 
industrial area, they have some very, very specific challenges.
    Ms. Kaptur. Thank you, Mr. Chairman.
    And I just wanted to say that when the Secretary goes to 
Israel, I wish I could go back there with you, but I will just 
put on the record that the Cleveland Jewish Federation along 
with many others have worked very hard to develop a 
relationship in Beit She'an, which is near the Jordanian 
crossing, and we have actually, brought scientists from there 
who have developed the most incredible production facilities 
for food, that I think have application here. And so we think 
we have some knowledge in our part of the country and have 
visited parts of Israel where natural partnerships exist, and 
we would love to share information with you on that. And I will 
wait for the second round.
    Thanks, Mr. Chairman.
    Secretary Moniz. We would appreciate getting that 
information, yes.
    Mr. Simpson. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chair.
    And welcome, Secretary Moniz.
    Before I get started, I just want to make a quick comment 
about my thanks to you for your role in the U.S.-Iran 
agreement. I think that the President put together a great 
team. But without your background, without your experience, 
without your presence, I don't think that the confidence in the 
public in what we what was developed would have never have been 
able to be understood or confirmed, and I think you lent that 
credibility.
    And to President Obama, I think that him appointing to the 
Department of Energy scientists--first scientist was Steven 
Chu; the second was yourself--both of whom have wonderful, not 
only policy but also research and intelligence in terms of 
application of what you know into your society and how we can 
better use whatever it is that is coming out of the Department 
of Energy, and I think your presence answers the question about 
how well we can expend research and development moneys into the 
fabric of the society. And I think the shifting of leadership 
of the Berkeley labs from Paul to--what is it, Michael?
    Secretary Moniz. Mike, yes.
    Mr. Honda [continuing]. Should be a transition that should 
be smooth, and also we are going to be celebrating that 
Molecular Foundry very soon, which is also another investment 
we have made in this country that has been able to deploy a lot 
of things that we take for granted in our lives.
    Having said that----
    Secretary Moniz. Thank you.
    Mr. Honda [continuing]. I would like to shift towards 
utilizing the technology into what we every day call 
weatherization. And, you know, the science--you know, really, 
the science is a foundation for our technology and our 
innovation. And I would like to invite you to my district, 
Silicon Valley, where we are developing a lot of clean energy 
technologies. But let me start off with the access to renewable 
energy. Renewable technologies can provide households with 
clean power, lower utility bills, and have the potential to 
unlock economic growth across the country, if not just, you 
know, regionally, but many people can't get these technologies 
because due to cost of bringing in these technologies or 
unsuitable space in their living areas or not owning their own 
living space either.
    Last year, the President launched a National Community 
Solar Partnership headed by the DOE, and I was wondering what 
the status of the partnership is?
    What progress have you been making so far at improving 
access to solar energy? If you have any suggestions for what we 
in Congress can do either through appropriations or through 
authorization to help accelerate that progress, and how has the 
private sector responded to the need for investments in the 
community solar projects?
    Secretary Moniz. Well, thank you. And, by the way, in terms 
of your Silicon Valley district, I would just note that June 1 
and 2, we will be in that region hosting a Clean Energy 
Ministerial of 23 countries and the EU, so that might be a 
chance to interact there.
    Mr. Honda. Great.
    Secretary Moniz. First of all, the solar deployments, 
distributed solar in houses, is really dramatically increasing. 
In fact, earlier, it was said about the number of jobs. I would 
just note that at the end of November, there were 208,000 
direct solar jobs in the United States.
    So it is really quite impressive. And the job growth in 
solar is at 12 times the pace of job growth of the economy as a 
whole. We are adding about 2 million jobs a year in the 
economy, the pace is enormous.
    Now, in terms of what we are doing in terms of advancing 
this, obviously, a very important part is the continued driving 
down of costs. That is clear. The cost of solar panels, et 
cetera, is going along very well. However, very importantly is 
working with the communities andthe cities in terms of what are 
sometimes called the soft costs. Those can dominate the cost of a 
system for a consumer.
    So, in our SunShot Program, we bring that in as a key 
element. You know, we don't have, of course, the regulatory 
capacity, but we do technical assistance. We try to share best 
practices, and we are seeing, I think, those soft costs come 
down.
    Frankly, in the United States, those costs at one point 
were about two and a half times as great as the costs in, for 
example, Germany, so a lot of streamlining and working with the 
communities, I think, is quite important. But we are seeing 
dramatic increases. I forget exactly, but I think we are now up 
to something like 9,000 megawatts of home solar systems.
    Mr. Honda. If I may, Mr. Chairman, a followup question 
would be in that light of driving the costs down, making it 
more accessible, increasing more jobs, the issue of 
weatherization is a policy we have where we go into homes of 
low-income, fixed-income seniors to reduce their costs of 
energy and through insulation. What does it take for us to add 
solar to this program, and how do you see that happening? 
Because we have been working with the green energy initiative 
and, you know, trying to pinpoint how we can do this with these 
communities. If we are truly going to drive down the costs of 
energy, I think adding solar to it will increase that 
possibility and, also, for them, you know, reduce dependency on 
fossil fuels.
    Secretary Moniz. Right. I may need to get back to you with 
a more detailed suggestion, but I think we would need 
authorization to, for example, integrate that into the 
weatherization program, which, I believe--and I am speaking a 
little bit outside of my lane--can only be used for lowering 
energy use--insulation, windows, et cetera--versus actually 
providing generation.
    But I completely agree with you that it is the integrated 
look that makes the most sense.
    Mr. Honda. But the idea that you are increasing, again, 
another source of energy, does that not reduce the cost of 
utility for the homeowner?
    Secretary Moniz. Well, sure. To the extent to which it is 
generating and potentially even selling back to the grid.
    Mr. Honda. Right.
    Secretary Moniz. That gets to the whole net metering thing. 
But I think an important point is that looking in a system way 
at decreasing the amount of energy needed and then bringing in 
things like solar and LEDs, for example, really makes a 
sensible system. The LED, for example, requires only one-sixth 
of the electricity. So integrating solar, efficient appliances, 
like LEDs, and addressing the building efficiency altogether, I 
think, makes a lot of sense, and that would be a great program 
to put forward.
    Mr. Honda. If I may ask, if we can work with your staff in 
developing this approach.
    Secretary Moniz. Great idea.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Secretary, good morning. Pleasure to see you again. 
Thanks for coming before the committee, and thank you for your 
leadership as well.
    Mr. Secretary, I ran track in high school. I was a triple 
jumper, long jumper, but one night----
    Mr. Simpson. Really?
    Mr. Fortenberry. Yes. Unbelievable.
    There is a relevant point here, I hope. One night I got put 
in a mile relay. Several people were probably hurt. I don't 
remember the exact circumstances, but I was in, I think, lane 
8. And in a longer relay--back then it was the mile relay--the 
lanes are staggered. So, to our ongoing point about 
nonproliferation, we have various lanes of this throughout the 
government. Now, I started the race way out front. By the 
second curve, everyone had pulled even, and because I didn't 
have sprinter speed, by the end of that turn, people were 
passing me by.
    The echo system in which we are considering 
nonproliferation concerns me, in the sense that we, again, have 
separate lanes between agencies. Perhaps you are the one most 
out front in the Energy. Defense, State, to a degree Treasury, 
Homeland Security, and then I think the National Security 
Council has coordinating responsibilities as well. But if we 
are all in our separate lanes, is there enough cross-
pollination communication to begin to really press forward and 
discern whether or not the current architecture, the current 
definitions of our programs, the emphasis areas are meeting the 
potential threats that are out there?
    The reality is you have spent enormous energy on this Iran 
agreement. I assume that was, of course, an appropriate 
diversion for your resources but a very big diversion.
    As we move into the future, where technology is more 
available, where the threats of nonproliferation grow with 
nonstate actors, is the current ecosystem for our 
nonproliferation efforts in the government sound? And what are 
we doing to think through the policy of potential changes that 
could achieve the goal of what we all want to see--as close to 
a probability of zero that something goes wrong in this arena?
    Secretary Moniz. Well, as we have discussed now for a 
couple years, I think we both share a strong commitment to 
nuclear nonproliferation as really an overarching 
responsibility and a big threat.
    First, let me just say that I do think that this is an area 
where I feel that the interagency coordination actually is 
pretty good. Lots of meetings at the National Security Council 
drawing upon particularly DOE, State, Defense, and Homeland 
Security. So I feel pretty good about that.
    Second, I think the report--that it was the first time the 
NN Program provided to Congress, last March or April was a 
comprehensive report that did a little bit of kind of over-the-
horizon looking in terms of threats. And that is something that 
we could come back and discuss in much more depth.
    Mr. Fortenberry. I think we ought to do that.
    Secretary Moniz. OK. That would be great.
    Mr. Fortenberry. Mr. Chairman, I know you are interested, 
as well, in this question. I think this is so absolutely 
critical, that if we could concretize some--realistic time in 
the short term, that would be helpful.
    Secretary Moniz. No, we would be delighted to do that. In 
fact, the whole point of the report, was to stimulate 
discussion. And, in fact, part of the origin of that was we are 
required by statute to submit every year a report on our 
weapons program. And it is a good, comprehensive report. And 
then we felt we should do the same thing with nonproliferation.
    Third, I would just say that I think it touches a little 
bit on what you were saying--there are a variety of threats. 
Obviously, we have seen in the press recently things about 
ISIS, for example, possibly having some interest in 
radiological materials. There is an example of a focal point 
where we really have to look at it.
    And there, I will just say that--I am going to be honest--
while we continue to have some good collaborations with Russia 
on nonproliferation issues and securing materials, particularly 
in the former Soviet Union, the reality is the current 
situation with Russia does not make our collaboration quite as 
robust as it was some years ago.
    The implications of that relationship, the strain in that 
relationship, are not often carried over to what it means for 
nonproliferation.
    Mr. Fortenberry. Yes. I think in previous testimony you had 
said that, although there is significant stress in the 
relationship, the science-to-science, technical-to-technical 
cooperation continues as one of the remaining threads of any 
kind of relationship. I hear what you are saying now; even that 
is under duress.
    Secretary Moniz. It has probably gone a little bit south.
    Mr. Fortenberry. Let me go to a specific point, though, 
that is a particularity in regards to your comments and our 
ongoing discussion, particularly given that there is a decrease 
of $62 million in your current request for nonproliferation 
programs. Can you explain that?
    Secretary Moniz. The decrease is largely associated with 
the----
    Mr. Fortenberry. Russian.
    Secretary Moniz [continuing]. Proposed shift in the MOX 
program.
    Mr. Fortenberry. OK. But outside of MOX, that is my 
understanding, that non-MOX proliferation programs, there is a 
decrease of about $62 million relative----
    Secretary Moniz. I see.
    Mr. Fortenberry. Do you want to come back to that?
    Secretary Moniz. Well, in terms of the specifics, yes, I 
would have to come back to that. But----
    Mr. Fortenberry. Look, I get it. Spending isn't always 
necessary to achieve the best outcomes----
    Secretary Moniz. Well----
    Mr. Fortenberry [continuing]. But in this case----
    Secretary Moniz. But, also, there are considerable uncosted 
balances right now. So we actually don't see a spending problem 
in the program.
    Mr. Fortenberry. That was my understanding, that this would 
be carryover funds.
    Secretary Moniz. Yes.
    Mr. Fortenberry. But that also begs the question, what is 
not being used and for what reason?
    Secretary Moniz. Well, partly is, as you said, some of our 
programs have gotten dialed back with Russia. I mean, that is 
just a fact.
    Mr. Fortenberry. The second issue related to this--I was 
going through your testimony, and we are moving forward on 
research, aggressive research, on small modular reactors, 
again, to the point of, when we look out on the horizon--and I 
am not talking about next year's budget hearing; I am talking 
about 30 years--when this technology is pervasive and it has 
become much smaller and scaleable, the implications for 
nonproliferation are huge, as well.
    Again, this is this delicate line we have between civil, 
peaceful purposes and weapons programs, in effect. And, you 
know, you are a couple of switches away, frankly, from moving 
one intention to the other. That is the reality.
    So, as we move forward with scaleable technology that is 
easier to use, more implementable, that is widespread, this 
also has proliferation implications I see.
    Secretary Moniz. Certainly, although we should emphasize 
that the principal nonproliferation risks are associated not 
with the reactors but with the potential surrounding fuel cycle 
activities, specifically enrichment or reprocessing. And I 
think what we need to do is to continue to encourage any 
development of nuclear power not to be accompanied by those 
activities.
    And, you know, that was one of the issues with regard to 
Iran, in terms of the set of fuel cycle activities that was 
going on, in contrast to most nuclear power countries that buy 
fuel on the international market, for example.
    Mr. Fortenberry. But along with that development there will 
be new pressures to have standalone enrichment, potentially, or 
a diversion of certain types of fuels. This is just--again, the 
smaller scale that it gets, the harder that it is to control, I 
would think.
    One of the controls that we have now is that it is such a 
grand investment of infrastructure that it has to be led by 
large nation-states. And, without that, I worry, again, as we 
granulize this technology----
    Secretary Moniz. If I may, I would just argue that there is 
a counterargument, in fact, that if a country is deploying only 
a very small amount of nuclear power, there is absolutely no 
rationale whatsoever for developing the surrounding fuel cycle 
activities.
    Mr. Fortenberry. OK. That is fair enough. But I think you 
understand the trajectory of my question.
    Secretary Moniz. Oh, it is a balance.
    Mr. Fortenberry. Yeah. All right.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary.
    Secretary Moniz. Good morning.
    Mr. Fleischmann. Before I begin my questioning, I wanted to 
convey a personal note of thanks to you, sir. When you were 
sworn in as Energy Secretary, your very first visit was to my 
beloved city of Oak Ridge. I appreciate that. You took the time 
to sit with me, go over the issues that were critically 
important to our community. And I have thoroughly enjoyed 
working with you and look forward to working with you this year 
on our endeavors.
    Oak Ridge is a special place. It sits in two counties, 
Anderson and Roane Counties. It has a great history, from the 
Manhattan Project forward. Its people are outstanding, and they 
are committed to what we are doing. There is so much there--
national security, leading the world in innovation. I think we 
have the premier lab in ORNL. I know our distinguished chairman 
might have some other thoughts. But I did get him to visit, and 
he brought the committee.
    Mr. Simpson. Not bad.
    Mr. Fleischmann. Not bad. That is right. And we brought 
some potatoes along, too, from Idaho.
    But the legacy cleanup activity has been incredible. It is 
going to be long-term, but we clean up and we reclaim there. 
But when members of the majority and the minority visit Oak 
Ridge, as you have done several times, there is a ``wow'' 
factor. It is just so critically important.
    So I want to thank you again for your dealing with those 
things with me and working with me. I know there are times when 
we agree, there are times when we disagree, but I have 
appreciated that working relationship, sir.
    Secretary Moniz. Thank you. Me, too.
    Mr. Fleischmann. Mr. Secretary, I know you have been 
closely involved with the decisionmaking on the uranium 
processing facility, the UPF, that is going to replace Y-12, 
which has done a great job, given the nature of facility, the 
age of the facility.
    This committee has been very clear on the need for UPF. 
Would you kindly update me and the committee on the design 
progress made in the last year, sir?
    Secretary Moniz. I would say quite good. The first part of 
the project, in terms of some of the site preparations, have 
been completed. In fact, I just happened to bring a flow sheet. 
There are six main projects to the end of the project in 
roughly 2025. The first on-site readiness is completed, and the 
second on-site infrastructure and services is well underway.
    Then we will go into a next stage--and, by the way, in 
fiscal year 2017, we do request a significant increase for the 
UPF. It is on the ramp up. Then, in the fourth quarter of 2016, 
we will have the baseline for stage 3. And then, eventually, in 
the fourth quarter of 2017, we expect to have the baseline 
meeting 90 percent design for the last two parts of the 
project, getting eventually to the main process building.
    So we think this modular approach--and, again, the red team 
that Tom Mason led was very important for that. And we think 
this is, frankly, a superior approach to the initial design 
that was having cost challenges. And I think we are just on a 
good track.
    Mr. Fleischmann. Mr. Secretary, thank you----
    Secretary Moniz. And it is very important that we do the 
UPF.
    Mr. Fleischmann. Thank you so much. And I appreciate your 
commitment to that project.
    You alluded to the fiscal ramp-up in fiscal year 2017 for 
the additional funds. And for the benefit of us all, can you 
please talk about the funding challenges and how we can keep 
the project on time and on schedule?
    Secretary Moniz. Well, I think, first of all, keeping the 
project, you know, on schedule and on budget is clearly very 
important.
    And here I would say a few things. One is, I think our 
substantial revision of the project management structure at the 
Department is taking hold, and it is working well. Certainly 
our target is to keep at least almost all of our projects 
within, say, 10 percent of the design parameters. We 
established a new risk committee. We have institutionalized the 
whole structure. The risk committee meets every week going over 
projects. Our Associate Deputy Secretary plays a major role.
    We need to keep the discipline of not so-called baselining 
until we have at least 90 percent design completion of 
projects. I think we just got into so much trouble before with 
putting out numbers for a schedule and cost that just did not 
have a basis in design.
    Third, I think we need to adopt--and I think the UPF is a 
good example of it--more the philosophy, if you like, of the 
Office of Science, which over the years has been by far the 
most successful in executing major projects among our three 
major programs. I shouldn't say ``executioners''--but science, 
defense programs, and environmental management are the three 
places where very large projects occur.
    And what I mean is that, once there is a solid baseline, it 
doesn't mean that problems don't arise. But when they do, you 
work to keep the project in the budget box and not just have 
the automatic reaction, ``Oh, okay, well, we'll just keep the 
project escalating.''
    So the UPF is an example where a fundamental relook was 
done and the modular approach introduced. So I think that is 
what we are doing, and right now I think it looks pretty good.
    Mr. Fleischmann. Thank you, Mr. Secretary.
    I see that our distinguished full committee chairman has 
arrived, so I am going to yield back until the next round. But, 
again, let me thank you again, and the future at Oak Ridge will 
be bright. Thank you, sir.
    Secretary Moniz. Thank you.
    Mr. Simpson. Mr. Rogers, the chairman of the full 
committee.
    The Chairman. Thank you, Mr. Chairman. Sorry to be late, 
but we have 26 hearings going on this week.
    Mr. Simpson. That is what I understand.
    The Chairman. And 21 last week, and I am trying to make as 
many as I can.
    Mr. Secretary, thank you for being here and answering 
questions about your budget request.
    The work you do at the Department of Energy has significant 
implications for our ability to grow our economy. The 
investments you make in the way energy is sourced, stored, and 
distributed not only determines the future of our energy 
security but also whether hardworking Americans can expect to 
have access to reliable energy at an affordable price. Energy 
impacts every industry, every sector of our economy, so much so 
that we can't understate the role it plays in an employer's 
ability to grow a business or a family's ability to plan and 
stick to a household budget.
    With families now paying more for power and growing unrest 
in energy-producing countries overseas, the question of how we 
achieve energy independence is more important than ever. So the 
question remains, knowing that we have abundant energy 
resources right here in this country, why is the administration 
committed to leaving that power in the ground?
    This administration's priorities with regard to coal are 
very clear. Rather than supporting an ``all-of-the-above'' 
energy policy, as they claim, their actions suggest that their 
true intention is to keep coal in the ground, and they do so at 
a very high cost. Coal is the cheapest and most abundant 
natural resource in this country. Businesses, schools, and 
communities can rely on it during storms and record cold 
temperatures and other unexpected circumstances.
    Meanwhile, the administration's war on coal has left 10,000 
coal miners in my district laid off. They are trying 
desperately to find work in some other job when they should be 
at work providing us with access to the affordable and reliable 
energy that coal provides. Nevertheless, the administration 
continues to write rule after rule intended to regulate coal 
out of the marketplace and my constituents out of work.
    Today, you present us with an energy budget that slashes 
funding for coal research in favor of renewable energy. 
Congress has repeatedly restored funding for coal research 
development and, in doing so, has sent a very clear message 
about our priorities for our national energy policy. Yet again, 
you have ignored congressional direction in favor of the 
priorities set by extreme environmental groups and the EPA.
    The Department has requested a reduction from 2016 levels 
for CCS and power systems while restructuring it in order to 
integrate funding for coal and natural gas carbon-capture 
projects. Congress has separated these funding streams in the 
past in order to ensure that the funding appropriated to 
develop clean coal technologies for each resource are utilized 
as intended.
    Furthermore, while you have given renewable energy a 
sizable $825 million increase, you have reduced fossil energy 
investments by $272 million. That is a 43-percent reduction, 
which you propose to make up for with budgetary gimmicks.
    You continually state that you are committed to an ``all-
of-the-above'' energy policy and that this begins with a 
commitment to low carbon. If that were the case, this budget 
request would make the necessary clean coal technology and coal 
research investments that seem to be missing in an effort to 
implement that policy.
    With coal generating 40 percent of the electricity in this 
country, CCS technology and investment in fossil energy 
research is vital to developing an energy economy that is 
reliable, affordable, and efficient. This budget request does 
not make the necessary investments in achieving that goal.
    These topics are critical to ensuring the affordability and 
reliability of the many energy resources we have in the country 
and important to our national security. I look forward to 
further hearing your testimony and answering questions.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Secretary, let me state something that you 
know is the issue we face here with this budget proposal that 
the administration has presented us.
    You state in your opening statement: The request consists 
of $30.2 billion in discretionary spending, $640 million above 
the fiscal year 2016 enacted appropriation--that is $640 
million above last year--and $2.3 billion in new mandatory 
spending proposals requiring new legislation.
    Is the Department going to propose new legislation to the 
authorizing committees?
    Secretary Moniz. Yes, sir, our intent is to--at least some 
of those requests.
    Mr. Simpson. Even if, as an example, with the $673 million 
in USEC funds that you plan on transferring over to use in EM, 
in cleanup, if the authorizing committee authorizes that, it is 
going to score against them. If we do it in our budget, it is 
going to score against us. So PAYGO is going to have to go.
    So we have a budget that proposes $640 million above last 
year. It also decreases funding for the Army Corps of 
Engineers' budget by $1.369 billion, or a 22-percent reduction. 
You have to remember this is an Energy and Water Committee, so 
we have to look at the overall budget.
    Somehow we are going to have to make up the $1.369 billion 
in the Army Corps of Engineers' budget, because I can't see 
this bill passing Congress without making that up. Everybody 
has an Army Corps of Engineers project in their district, 
frankly, and, consequently, Congress is going to insist that we 
make that funding up.
    So now we are down almost $1.4 billion. We are down $673 
million that will come out of the USEC fund. Even if we somehow 
find the $674 million to put in EM, the EM proposed budget at 
that time is still $100 million below last year's level, which 
is going to cause some problems. WIPP is $34 million, or 11 
percent, below last year's level.
    So we are going to have to make some considerable 
adjustments as we try to fill in these other accounts. And it 
looks like the place that you are going to find it is the place 
that has increased the most in your budget, which is one of the 
ones nearest and dearest to your heart, and that is the 
research and development initiative that you have suggested for 
a 21-percent increase. And while I don't disagree with what you 
are trying to do in this initiative, at this level it is going 
to be very difficult to make up ground and put funding in 
there.
    I know that you understand this. We have had this 
discussion. But I just wanted to state that. These are the 
challenges this committee is going to face in putting together 
this budget.
    Let's talk for a minute, if we could, about a subject near 
and dear to all of our hearts: MOX. The budget request proposes 
to terminate the MOX project and begin pursuit of an 
alternative to dilute and dispose of 34 metric tons at the 
Waste Isolation Pilot Plant in New Mexico. WIPP is a pilot 
repository for a certain amount of particular defense waste, 
and DOE has requested to move forward with a significant 
expansion in the WIPP mission.
    To date, DOE has done a safety assessment for disposal of a 
relatively small portion of plutonium but has yet to perform a 
safety analysis for the full 34 metric tons. There was an 
independent study, a safety analysis, performed by an outside 
group that warned of safety and regulatory problems that could 
be encountered with disposing of large amounts of plutonium in 
WIPP, the most significant of which is the possibility of 
criticality.
    Is the safety analysis DOE has performed thus far truly 
scaleable, or are there implications to disposing of a much 
larger amount of plutonium in WIPP? Are you looking at these 
safety issues now that they have been brought up to you? Do you 
believe they have merit? And how might the full analysis change 
the cost to dilute and dispose alternative? For instance, are 
you currently allowed to ship weapons-grade plutonium to WIPP?
    Secretary Moniz. Thank you, Mr. Chairman.
    If the chairman will permit, I just would like to make two 
brief comments on the last two questions.
    Mr. Simpson. OK.
    Secretary Moniz. First, for Chairman Rogers, I would 
certainly welcome the chance to come and talk over the entire 
coal program and get your perspectives further but, also, to 
add our perspective, which I think is a pretty robust program. 
So perhaps we could think about that offline, if you would 
permit.
    Secondly, on the overall budget that Chairman Simpson 
raised, I do want to note that, first of all, things like WIPP 
in the big budget context, that decrease is all part of the 
plan. I mean, that is a full funding plan for moving towards 
restart of operations. There was a peak because of some of the 
capital work that was going on. There will be additional 
capital work in the future in terms of a new ventilation 
system. So that is already in there.
    And things like the USEC fund, we did propose a specific 
offset there in terms of restoring the fee. A quarter-mil-per-
kilowatt-hour fee over 10 years would more than offset what we 
would use out of the USEC fund. So I think we do have some--we 
have addressed part of your problem, at least.
    Mr. Simpson. At least part of it.
    But let me ask you, not on that point, the previous point, 
at WIPP, if we fund WIPP at 11 percent below last year's level, 
a $34 million decrease, is it still on schedule at that level 
to open the latter part of this year?
    Secretary Moniz. Yes, it is. Yes. And--yeah, absolutely. We 
are committed to that, of course, safely. I mean, doing it 
safely, that is our plan.
    Going to the MOX question and the criticality issue 
specifically, so we asked Sandia Laboratory to do an analysis 
of the assertions in the High Bridge report, and, frankly, they 
concluded that the risk of criticality issues at WIPP are just 
unfounded.
    First of all, we note that, of course, we do have almost 5 
tons already there in the same form that would go there if, 
with the Congress, we are able to change the pathway on the 
scenario in the High Bridge report with criticality control 
overpacks containing the diluted plutonium being crushed, et 
cetera--Sandia evaluated it as rather simplistic and not at all 
credible.
    In addition there are other issues. I mean, there is no 
separation of the plutonium even in being crushed, so it is not 
like somehow you assemble a critical mass. I would also add 
that the chlorine in the salt is a very good neutron absorber. 
It is actually a very good geological medium for doing this. So 
we just don't think that that is a valid critique.
    I would also add that there are an additional 6 tons of 
plutonium already at Savannah River that are already, you know, 
labeled for going to WIPP, which would not have been part of 
the MOX program. And then another 7 tons, we believe, could 
certainly be accommodated at WIPP without anything like 
additional Land Withdrawal Acts or anything.
    So, you know, we believe that this is a very sound--a very 
technically sound pathway.
    Mr. Simpson. Let me tell you, contrary to popular belief, 
that the reason Congress has concern about the dilute and 
dispose alternative is not because of our concern about the 
South Carolina delegation. There are other issues that cause 
concern, and that is: We put a lot of money into MOX. Four 
years from now, when you are gone, I am gone, a new Congress is 
sitting here and we have moved down a road toward something 
that we haven't got an approval for yet.
    The reason I ask that is, have the Russians agreed to this 
in more than just ``Yeah, we think we could probably go along 
with that''? Do we have a signed agreement with Russia? Do we 
know what they are going to ask in return, if anything, to 
approve of this? Because, you know, they are pretty good 
dealmakers. And I suspect there is something on their table 
that they would like, and is it something can we accept? And if 
we have stopped MOX, do we then force ourselves into having to 
accept whatever they want to do? Concern one.
    Concern two, the State of New Mexico. I don't see a lot of 
excitement in the State of New Mexico, in listening to their 
Senators. And I don't know that they have made a decision, and 
I am not suggesting they have, but there is obviously concern 
there. If we have to do another land withdrawal 2 or 4 or 6 
years down the road when we have stopped MOX and can't go back 
in that direction, are we sitting here with our thumbs up our 
nose wondering what we are going to do next? You know? That is 
the concern I have.
    Secretary Moniz. Well, again, certainly the pathway, for 
the first 13--for 13 tons, which is all the plutonium at 
Savannah River, we think is pretty straightforward there. We 
would have to do additional safety analyses, and then there is 
the additional 27 tons, most of which is at Pantex at the 
moment, to take care of.
    On the Russian question, well, the answer is ``no,'' and in 
a certain sense ``of course not,'' in the sense that we have 
not, you know, kind of triggered the formal process, which 
exists in the agreement, to see about endorsing the change.
    As you indicated and as we have discussed previously, we 
have had certainly a number of discussions--I have had a number 
of discussions with Rosatom. The Deputy Secretary has, as well, 
with their deputy. They have expressed certainly a willingness 
to listen. But until, I think, we see with the Congress what 
our pathway is, we have not had of a formal initiation of a 
process.
    Now, as you know, and as I think we have been very 
consistent for the last 2 to 3 years, is that our problem is 
the current pathway is not viable. We believe the dilute and 
dispose is both faster and cheaper, and the faster is 
important--much faster, by the way. We are talking a lot faster 
to move.
    Mr. Simpson. By a factor of what?
    Secretary Moniz. We are talking about--the MOX approach 
will probably not actually put plutonium into a reactor if--and 
talking about uncertainty--if we can find somebody to burn it. 
There is no commitment to accept MOX fuel in any reactor in the 
United States. But if we get over that, then we are probably 
talking 2040-ish to begin versus maybe 15 years earlier with 
dilute and dispose.
    So I think we have strong motivation. And our problem is, 
as we have always said, that to complete the MOX program we are 
going to have to bump up the funding to at least $800 million a 
year, probably closer to $1 billion a year, for a long time.
    And so I have always made it clear, if the funds are there 
and the Congress wants to do it, we will do MOX. But we just 
don't see it as being realistic. And, again, I am not talking 
about just the MOX factory but the whole system and its 
operations, with certainly north of a $30 billion lifecycle to-
go cost.
    Mr. Simpson. So there are all these positive results. 
Certainly South Carolina has agreed to this, right?
    Secretary Moniz. No, as I think you know quite well that 
this remains--look, I am not going to sugarcoat it. This is a 
very tough issue, obviously, for all kinds of reasons--some 
local, but also some policy reasons.
    Mr. Simpson. Sure.
    Secretary Moniz. And, clearly, no one likes the idea of 
having gone quite some ways in building that particular 
facility. As you say, I mean, it is nearly $5 billion of sunk 
costs. But I am just looking at the to-go costs, and they are 
at least a factor of two--I think more, frankly--than dilute 
and dispose. So that is the tough question, the tough issue we 
face.
    Mr. Simpson. Well, as I said, for me and I think for a lot 
of Members of Congress--and I understand that, you know, in 
South Carolina you are talking about jobs and a few other 
things like that, which are very important.
    Secretary Moniz. Uh-huh.
    Mr. Simpson. But, for me, it is that I have seen too many 
times the Department head down a road over the years and get 
halfway down that road and find a fork and decide it doesn't 
want to go. And we end up with these monstrosities out there of 
half-finished projects or projects that have cost us four times 
what we thought they were going to cost us. So it is 
frustrating to me.
    What I would need to see, frankly, is a signed agreement 
with Russia that this is going to be okay, because I want to 
know what I am getting into. I would want to know that New 
Mexico is on board and South Carolina is on board and we are 
not going to be paying fines to South Carolina. That is what I 
would need to see.
    Secretary Moniz. There is a bit of a chicken-and-egg issue. 
And, look----
    Mr. Simpson. You bet there is.
    Secretary Moniz [continuing]. As you know, I have been 
discussing this now for years. I am happy to get together with 
both chambers, both parties, all the parties, and see what we 
can do for a path forward.
    But, you know, let's face it, I mean, it is hard to see a 
convergence, because we have always said at the current funding 
level--and we try to extend it. We did extend it, working with 
Congress. We are following the edict of continuing to construct 
with the $340 million. But I don't think there is much argument 
that at that level of funding the project just does not reach 
completion.
    Mr. Simpson. Is there a stop-work order out there?
    Secretary Moniz. No, there is not.
    Mr. Simpson. There is not?
    Secretary Moniz. No, no. There is not.
    Mr. Simpson. None have been prepared and are ready to be 
issued?
    Secretary Moniz. Certainly not to my knowledge, I think the 
confusion may come by, I mean, the language is there that if 
Congress endorses the shift of direction, then a stop-work 
order in fiscal year 2017 would be issued, but not in fiscal 
year 2016. We are following the congressional direction----
    Mr. Simpson. OK.
    Secretary Moniz [continuing]. And constructing.
    Mr. Simpson. Mr. Rogers.
    The Chairman. Mr. Secretary, you were directly involved in 
the negotiations with Iran on the Joint Comprehensive Plan of 
Action. Those negotiations, of course, have concluded. And DOE 
is expected to play some sort of role in implementing that 
agreement, but it is not clear to me exactly what that amounts 
to.
    Is there funding in your request for that nuclear agreement 
with Iran? Did you request any funds to implement it?
    Secretary Moniz. There are no specific funds. Frankly, it 
is a relatively low expenditure in terms of supporting travel 
in kind of our normal nonproliferation activities. Most of 
these meetings we're supplying technical experts. For example, 
right now, we have a couple of people in Vienna right now 
meeting with Iranians to resolve some questions. But we have no 
major expenditure.
    And, of course, I spend some of my time on the phone and in 
meetings, but that is the kind of thing that we are doing. And 
a lot of it is what we normally do of supporting the IAEA, 
because they are the ones who actually have the verification 
responsibilities.
    The Chairman. The administration has said that, under the 
terms of that agreement, so much information on Iran's nuclear 
activities would be collected that if Iran pursues a nuclear 
weapons program it would be detected.
    This week, though, GAO released a report that says that the 
International Atomic Energy Agency, IAEA, the agency 
responsible for verifying and reporting back to the 
international community on Iran's compliance, quote, ``faces an 
inherent challenge in detecting undeclared nuclear materials 
and activities,'' end of quote.
    Do you believe the verification measures that exist will be 
sufficient to monitor compliance and detect unlawful use of 
material?
    Secretary Moniz. Yes. First of all, the inherent challenge 
is clear, because if it is undeclared it is inherently a 
challenge compared to the declared facilities in a breakout 
scenario.
    But, look, as Jim Clapper, our Director of 
NationalIntelligence, has said, you can never say 100 percent on any 
particular activity, but he then added that the insight that we get is 
dramatically enhanced. Certainly, the barriers to trying a clandestine 
program are substantially higher. There are unparalleled verification 
measures in there. We feel quite confident about it.
    The Chairman. GAO also described concerns that, absent a 
complete accounting of Iran's past nuclear program being 
provided to the IAEA, the Agency would be limited in its 
ability to detect undeclared activity going forward.
    What information regarding the nature or composition of 
Iran's past nuclear activities does the agreement require Iran 
to disclose?
    Secretary Moniz. The IAEA investigation into the so-called 
previous military dimensions was closed out in a report by the 
IAEA, although they certainly are not proscribed from 
revisiting that should new information appear. But, right now, 
our focus is clearly on verification in the future.
    And, again, the measures are extraordinary. For example, 
for the first time anywhere, the IAEA has been monitoring the 
entire uranium the life cycle since January 16. That is a novel 
thing. And for 25 years monitoring that fuel cycle, for 20 
years monitoring all production of the sensitive centrifuge 
parts, et cetera.
    The Chairman. How would the agreement identify covert or 
undeclared activities that Iran might have or might develop 
over the next 15 years?
    Secretary Moniz. Well, at some point, as I said earlier for 
a different reason, we may want to get together in a different 
setting to discuss some of that.
    But, basically, it is tracking the uranium; it is tracking 
all parts of the centrifuge; it is using other means of getting 
information and then exercising what is also novel, the IAEA's 
ability to go anywhere, within reason, to go anywhere in a 
fixed time period. That is, again, a novel feature of this 
agreement. And other stuff--and we could go into more detail in 
a different setting.
    The Chairman. I look forward to that.
    Secretary Moniz. OK.
    The Chairman. Thank you, Mr. Secretary.
    Mr. Simpson. Ms. Kaptur.
    Ms. Kaptur. Thank you.
    Thanks, Mr. Secretary, for your endurance here.
    Your budget request includes funding for a new competition 
for regional energy innovation partnerships. And I know you 
care about them a great deal.
    Do you have a conceptual idea yet of how regions of the 
country would be divided or topics would be divided?
    And you intend these partnerships to be fuel-neutral, yet 
they are included in the EERE function in the budget. Does the 
Department have a proposal to address this limitation?
    Secretary Moniz. Yes. The proposal is parked in the EERE 
budget, but the regions would not be restricted to that. If 
there is a better way of putting that into the organizational 
structure, we are happy to discuss that with Congress. So 
number one is it is not restricted in how the regions would 
shape their portfolios.
    Second, we have drawn our own little map for our own 
thinking, but I think, we very much hope to go forward with 
this. I think it is a novel and very important approach. And 
that would be something that we would want to discuss with 
Members, in terms of how those are structured.
    We have tried to have a look at what are the R&D resources 
in different States and how might one put together the regions 
of contiguous States. But, again, that is something, I think, 
that we would have to discuss before actually executing.
    Ms. Kaptur. Thank you very much.
    In terms of the national labs, we know what a tremendous 
asset they are and how much you pay attention to them.
    You have recently stood up the Clean Energy Investment 
Center. And my question is, is this only to serve investors, or 
are others going to be somehow engaged in all of this? And how 
do you believe the center should serve business?
    Secretary Moniz. Well, the Clean Energy Investment Center 
is intended to provide transparency into the national lab 
programs for investors. That is the goal. On the other hand, 
you know, this is a public activity. This is not privileged 
information, so it is transparent. And I think we could 
consider businesses to be investors if they are interested in a 
particular technology.
    We also, by the way, just hired, about a few weeks ago, an 
excellent person to head that center. Dr. ``Malpotra'' I think 
his name--something like that, approximately.
    Ms. Kaptur. It will be in Washington?
    Secretary Moniz. Malhotra.
    Ms. Kaptur. It will be in Washington, or have you not 
picked a place?
    Secretary Moniz. This is a very small activity. It would be 
included in the Office of Technology Transitions that we have 
asked for, I think, $8.5 million for.
    In fact, there would be several functions in the Office of 
Technology Transitions. One of them is the Clean Energy 
Investment Center. Another one is--we have listened to the 
Congress that asked for the formation of whatwe have labeled it 
Technology Commercialization Fund. It is a fund explicitly put together 
with 0.9 percent of the applied energy programs funding. It is about a 
$20 million fund that will be run out of the OTT competitively for the 
labs, again, to commercialize technologies. That was put into the--I 
think it was the 2005, I think, Energy Policy Act. And we are proposing 
to implement that in 2017.
    I might add, in terms of this structure of the OTT, it is 
not exactly the same subject, but going back to Chairman 
Rogers' comments earlier, opening statement, I would note that 
another initiative--and I think it is relevant to some of the 
things that Congresswoman Kaptur has mentioned in the past--is, 
about 2 years ago, we formed a Jobs Strategy Council and 
brought in two excellent people to do that. And I think they 
have had very good impacts, including, by the way, they have 
had some work with Paducah.
    But, in the budget, we are asking to formalize that into, 
again, a small office whose focus would be often in working 
with labor, but the focus is on energy jobs in the country and 
what do we do to support them. So that is another initiative in 
the fiscal year 2017 budget.
    Ms. Kaptur. Thank you for those clarifications.
    I wanted to turn quickly--just as a comment, the budget 
request proposes to establish a new hub focused on enabling 
technologies related to desalination. And the hub is proposed 
as a 5-year, $25 million initiative, and it would be a 
centralized research and development effort.
    Coming from an area that won't need desalinization, I just 
wanted to point out that there are many water-related needs and 
power-related needs in other parts of the country related to 
clean energy, and I would hope that they would get equal 
attention. So that is in the way of an advertisement for the 
Great Lakes. And just wanted to----
    Secretary Moniz. I would add, the Energy-Water Nexus 
Program is much bigger than that.
    Ms. Kaptur. All right.
    Secretary Moniz. That is where that comes in.
    Ms. Kaptur. All right. Thank you.
    And I have to end on a little light story. And it actually 
is a light story. And that is, you work at very high levels, 
Mr. Secretary. You negotiate with the Soviet Union--or, excuse 
me, Russia, although it certainly looks like what it used to 
be.
    But out in Ohio, there are two farmers. One guy is named 
Dick, and the other guy is named John. And Dick runs a--he is a 
very innovative farmer, but he farms under a canopy. And he and 
John are always in competition, kind of like Jeff was in 
competition as a high jumper.
    But Dick figured out that if he uses light something 
happens. And so he grew tomatoes that were so productive on 
vines that were one-third larger than John's tomatoes--and John 
runs a big processing company called Hirzel's--that John pulled 
his tomatoes out of where he was growing them, and he drove 
down in his truck down to Dick's operation to spy on how he was 
getting this higher yield. And they are sort of figuring out 
down there on the ground that light has a whole lot to do with 
success and higher yields.
    And so I want to say that, to help our region of the 
country, that the ingredient of energy and light rays and light 
frequencies is something that needs attention, more than it is 
getting. And the way in which these folks are trying to 
compete, unsubsidized in a global marketplace, could really be 
enhanced by your department.
    You already know that; you have heard me say it. But they 
are competing against cap-and-trade-subsidized systems in 
places like Brussels, Belgium, that get a 50-percent subsidy. 
And so, for us to be competitive, the energy piece is critical. 
And the folks at the Department--not you, but the people who 
work under you--have to understand this.
    And it is not as difficult a challenge as providing power 
to Orion in deep space, but it is a real challenge on the 
ground. And it shouldn't be so difficult for these folks that 
are out there trying to make it in the marketplace to have the 
benefits of high science.
    So I just wanted to end with that little story, because I 
want both Dick and John to be successful and to have the very 
best energy knowledge that they can possibly have in materials 
science so they can be the most successful farmers in the 
world.
    Secretary Moniz. I would suggest they also capture carbon 
dioxide and put it in a greenhouse.
    Ms. Kaptur. Well, help us do that.
    Mr. Simpson. Mr. Honda.
    Mr. Honda. Thank you very much.
    And let me shift a little bit towards energy storage. We 
know that energy storage technology can fundamentally improve 
the way with generate, deliver, and consume energy by 
increasing the electrical grid's capacity, flexibility, and 
reliability. And when it is paired with renewable energy, 
storage can increase the amount of clean energy that can be 
distributed throughout the grid and throughout the community, 
from homes, cars, to the grid.
    Can you give us an assessment of the status of energy 
storage technology, and is the technology ready for widespread 
deployment? What are the barriers we need to overcome to speed 
up the deployment of storage technologies? And does DOE have a 
strategy to increase the deployment of storage energy 
throughout not only the electric grid but make it more 
available for homes and utilization of our electric cars and 
distribution of that?
    Secretary Moniz. Yes. Thank you. That is really an 
important subject. And we do in the fiscal year 2017 budget 
propose some significant increases there, I think up to $225 
million over--I think it is over three different programs, 
Office of Electricity being one of them. Of course, the Energy 
Efficiency and Renewables Office has a particular focus on the 
automotive side and on the integration of things like electric 
vehicles into the distribution system. So those are all going 
forward.
    The role of storage in the grid is certainly extremely 
important. As you know, in California, there is an initiative, 
in fact, requiring storage to be included.
    I must say that one of the things which is not a technology 
issue is we probably do not yet have developed the kind of 
regulatory structures to properly value storage in the grid, in 
terms of what it actually does for the whole system. It is 
obvious in terms of intermittent renewables, but there are 
other things in terms of grid stability, frequency stability, 
et cetera.
    So we are focusing on that. I think there has been a 
tremendous advance in the last years. Costs have come down 
probably 70 percent in the last 7, 8 years, but we still have a 
ways to go.
    In the automotive sector, for example, to be more specific, 
we model large-scale battery production based upon current 
technology as, let's say, around $250 per kilowatt hour of 
storage. We need to cut that down by at least a factor of two 
for it to really expand in the marketplace.
    But we are optimistic. I mean, at the pace we are going, I 
think, you know, we will be there certainly within a decade.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Fleischmann. And I have to tell you that 
when you say ``Idaho potatoes'' in the same sentence that is 
redundant.
    Mr. Fleischmann. There you go.
    Mr. Simpson. All potatoes come from Idaho.
    Mr. Fleischmann. And we love your Idaho potatoes. And when 
I visited your lab, I had some of the best Idaho potatoes in 
the world. So thank you.
    Secretary Moniz. Actually, Mr. Chairman, if I may, I was 
just handed a note that I misspoke on something. I should 
clarify, unfortunately, for Chairman Rogers, that in the budget 
we do have explicitly $13 million for the JCPOA implementation. 
So I would like to just correct that for the record.
    Mr. Simpson. OK.
    Mr. Fleischmann.
    Mr. Fleischmann. Thank you.
    Mr. Secretary, several years ago, some shortsighted changes 
were made to the management structure in the Department of 
Energy Oak Ridge Federal office. These problems have removed 
incentives for the many DOE program offices to work together in 
an integrated way that marshals all of our assets for greater 
results. The changes also have resulted in serious conflicts 
with local elected officials on top DOE priorities.
    Mr. Secretary, we need your help in removing the stovepipes 
and integrating Oak Ridge programs again. My question for you 
is, will you work with me to address these problems, sir?
    Secretary Moniz. Congressman Fleischmann, I know the 
programs feel that the new organization, if you like, kind of 
better aligns what they are trying to do. So if there are 
issues, however, of kind of bridging between them, that is 
certainly something I am happy to discuss with you and the 
programs and see if we can improve that.
    I do add that, from the program side, they feel the new 
organization is actually giving them better alignment with what 
they are trying to do. Now, Oak Ridge, admittedly, is a 
complicated site. Not only does it have the three major 
programs there, but even just geographically you have some of 
the military stuff sitting in the laboratory. And I know that 
is a challenge, so I would be happy to discuss that.
    I also want to say that we are moving, I think, 
expeditiously in terms of hiring the new science manager.
    Mr. Fleischmann. And I thank you. And these changes were 
made prior to your tenure and prior to my tenure. And there was 
an individual, who is a mutual friend of ours, who had that 
role. And that model was something, back years ago, that worked 
very efficiently, and I would just put that forth for your 
consideration, sir.
    My next question is going to be on high-risk excess 
facilities. You named a panel within the Department of Energy, 
sir, to find solutions to the problem of high-risk excess 
facilities. What were the panel's findings? And what is your 
plan and timeline for reducing the risks in taking down these 
buildings, sir?
    Secretary Moniz. Get more money.
    Mr. Fleischmann. Yes, sir.
    Secretary Moniz. Yeah, so we have used our Laboratory 
Operations Board that I formed in 2013 in looking at what I 
would call really systemic problems.
    The three areas I would just note that are kind of, in some 
sense, I view as connected--one is that, for the last two 
budgets, we have insisted on a principle, although calling it a 
principle may be elevating it too much, but a principle that 
the programs shall not put forward budgets that further 
increased deferred maintenance. You know, it is the old theory 
of holes--you have to kind of stop digging, and you have to 
just stop at some point. So the last two budgets, including 
this one, respect that principle.
    Second, there was a major--really, the first, as far as I 
know, systemic study of kind of what I would call the general 
infrastructure needs at our laboratories and sites. And I am 
happy to say that, you know, it is a big bucket, but we are 
putting drops into it. And this budget, again, has a 
significant increase in addressing the general infrastructure 
issues.
    The excess facilities are, frankly, more difficult, 
including sometimes the issues of boundaries, like transferring 
responsibility from NNSA to Environmental Management, and then 
when one runs into the budget problems that the chairman 
described earlier.
    So all I can say there is that, you know, I think we are 
facing the problem. As you say, we charge this committee to 
look at these issues, and we are doing our best within the 
budget constraints. And at Oak Ridge that is certainly an issue 
to be concerned about.
    Mr. Fleischmann. Thank you, sir. Yes, it is.
    One last question. As you know, in Oak Ridge, we not only 
clean up legacy sites, we reclaim them for economic 
development. And I think we do that perhaps better than 
anywhere in the country.
    And I want to thank you again for your efforts to restart 
the stalled land transfer process for excess Federal land that 
is important to many DOE communities that lose tax revenue from 
the Department, substantial landownership.
    We are grateful for the advancements that have occurred in 
the last 2 years, but has it become apparent that the process 
needs to be streamlined. The current system allows unlimited 
time with too few constraints on the many decision-makers 
involved in the process.
    Mr. Secretary, would you consider authorizing a closer look 
at the process to find ways to streamline and shorten this 
process, sir?
    Secretary Moniz. I would be happy to have that looked at. 
Streamlining is a good thing, so we will do that.
    Mr. Fleischmann. Thank you.
    Secretary Moniz. In some cases, I might add, in some 
cases--you said multiple sites. And, in some cases, there are 
also different opinions in the community about how that is 
done, so it is not a cookie-cutter kind of issue. But we will 
look at it.
    Mr. Fleischmann. Thank you, sir.
    I yield back.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Secretary, I will probably return to the 
nonproliferation question this afternoon with General Klotz and 
get his perspective on whether or not the current construct is 
needing to be rethought, where we are in terms of a long-term 
assessment, but also probably--well, I will mention your 
interest in some additional meeting within the coming weeks or 
months.
    Secretary Moniz. Let's do that. That would be great.
    Mr. Fortenberry. OK. Excellent. Thank you.
    Regarding MOX, we are stuck. It is too expensive to 
complete. There are, really, three variables, that being the 
main one, too expensive to complete. There is a fairness issue 
to South Carolina, and then, third, what do you do with this 
fuel if we don't move forward.
    Again, rethinking the whole construct, you talked about a 
Mission Innovation agreement in clean energy, R&D there. Has 
there been any thought to again--and it has broader 
implications, I think, with the IAEA and the entire 
international community and the entire fuel cycle and waste 
disposal problem and blend-down problems--of creating some of 
type of new international architecture of a shared agreement in 
which we are participating with other countries in this rather 
than trying to carry this load by ourselves?
    Secretary Moniz. Well, first of all, at a general level, I 
think as you know, at the very end of March, the President will 
host here the national security--no, the----
    Mr. Fortenberry. The nuclear summit.
    Secretary Moniz [continuing]. Nuclear security summit. 
Thank you. And that is, of course, a global discussion about 
nonproliferation architectures.
    With regard to plutonium disposition specifically, there 
certainly has not been any discussion of the type that you have 
suggested. Of course, fundamentally, it comes down to Russia 
and the United States as having the large amounts to dispose 
of. And we should also note that at least my understanding is 
that, you know, Russia is not exactly either burning up the 
plutonium at this stage either. It is a tough, expensive 
proposition, as we have found.
    Mr. Fortenberry. The blend-down option and storage in New 
Mexico is a reasoned alternative, from your perspective?
    Secretary Moniz. Yes. Well, first of all, I do want to 
emphasize that for the 34 tons, plus, by the way, the 
additional 6 tons that I mentioned at Savannah River which are 
not intended to be MOXed, we are not stating that necessarily 
all of that goes to New Mexico. We have said that 13 tons on 
top of the 5 that are already there can certainly be 
accommodated at WIPP, and the 6 tons are already scheduled to 
go to WIPP. Of course, WIPP has to get reopened, and that is 
going to be another 5 years before they are--let's say roughly 
5 years until they are in full operation.
    But, technically, it is very simple. We have done it. As I 
said, we already have 4.8 tons diluted and disposed at WIPP. 
This exists. So there is really--frankly, there is far less 
technical risk in that approach than there is with MOX--far 
less.
    Mr. Fortenberry. Is that your recommendation?
    Secretary Moniz. Yes. So, in our budget, we have 
recommended a shift, but this is, of course, up to the Congress 
to decide.
    And then we need to go through--as the chairman said, we 
will need to go through kind of the formal process with Russia. 
I do note that that process was already exercised in the other 
direction, where the United States approved Russia to change 
its----
    Mr. Fortenberry. It diverted it to another----
    Secretary Moniz [continuing]. Disposition pathway.
    Mr. Fortenberry. Right. In 2010, if I recall correctly?
    Secretary Moniz. 2010, yes, I think that is right.
    Mr. Fortenberry. Well, let's just keep the idea on the 
table of perhaps some, again, new international framework. Even 
though, as you have said, the lion's share of this is Russia 
and the United States, maybe there is some different approach 
that would allow for better cost-sharing rather than 
independent pathways.
    Secretary Moniz. The only thing that I could think of--and 
I am not recommending it, like, you make MOX fuel and you have 
it burned in a reactor in another country.
    But, frankly, I don't think we want to get into the 
business of sending this to other places. SoI think we are 
going to have to dispose of it domestically.
    Mr. Fortenberry. Let me quickly turn to the International 
Atomic Energy Agency. And from your perspective--the Agency's 
ongoing shift of mission, or the concurrent missions of nuclear 
safety to nuclear proliferation, nonproliferation, has 
heightened.
    Are their resources robust enough? Who is the primary 
leader of the International Atomic Energy Agency's culture? I 
think we have an excellent Director now, but we can't always 
guarantee that. Could you speak to those issues, please?
    Secretary Moniz. Well, first of all, I might say it is not 
only the Director but also the--the DG, but also the deputy 
directors, who really do the lot of the day-in, day-out, for 
example, with verification in Iran. Very senior people are 
there quite frequently these days. So I think there is a great 
degree of competence.
    And I have said before that we always, especially at Los 
Alamos, provide training for their inspectors. As far as budget 
goes, the Director General has said that, you know, they have 
adequate budget. They did need for Iran a plus-up of something 
less than $10 million a year, but they have budget.
    But that, of course, assumes that they do get voluntary 
contributions to specific programs beyond their normal, kind 
of, dues, if you would like. So, for example, there is a 
significant program in terms of use of nuclear energy for all 
kinds of alternative applications in society. That depends 
critically upon getting, voluntary additional contributions.
    Mr. Fortenberry. But in terms of continuity of the 
organization, continuity of leadership, are you comfortable 
with, oh, I guess, the oversight mechanisms, our intimacy with 
the organization, their dependence upon us, so that we can help 
in a profound manner shape the interior culture there, in order 
that we have, again, a continuity of process, like we are 
seeing now, which I think is good and strong and robust and 
growing? This is going to become more critical into the future, 
I think.
    Secretary Moniz. I think that the issue of continuity--
well, first of all, I think the United States, I certainly 
think that we have a very good relationship with the leadership 
at IAEA. And, again, I don't just mean the Director General but 
going down more of the organization. Certainly, our lab people 
are there very, very frequently, you know, working on specific 
issues at the staff level.
    But I think the Board of Governors mechanism has been 
working quite well. Obviously, we are a major player in that, 
but, in general, I think it is working well. Certainly, in all 
of this Iran business, you know, the Board of Governors was 
always quite helpful, I would say.
    Mr. Fortenberry. Yeah.
    Thank you, Mr. Chairman.
    Mr. Simpson. Just to clarify your statement, your own red 
team suggested that selling the MOX fuel in the United States, 
that there would be a demand for it. That the only question out 
there was that--yes, they did. They didn't believe that that 
would be an issue.
    Secretary Moniz. Oh, I see. They didn't believe--all I am 
saying is that----
    Mr. Simpson [continuing]. They weren't going into--well, 
who is going into a contractor commitment right now when they 
have no idea what the future of MOX is going to be? What 
company is going to go into that? Nobody is.
    Secretary Moniz. I agree with that, Mr. Chairman. I would 
also observe, however, that that was the case before the issue 
of changing pathways was raised.
    Mr. Simpson. But there was interest at that time from TVA, 
wasn't there?
    Secretary Moniz. There was some interest expressed. 
Actually, Duke--I think it was Duke----
    Mr. Simpson. Duke.
    Secretary Moniz [continuing]. Had expressed interest and 
then explicitly withdrew it, is my recollection. I will check 
on that. But it does require--because to use it, of course, 
requires a relicensing from the NRC.
    Mr. Simpson. What I am suggesting is that your own red team 
is not as certain that it would have to be sold internationally 
because nobody has an interest in it.
    Secretary Moniz. Oh, no, no, no. Please----
    I want to make known, I just raised that in the context of 
the question asked about internationally. I don't think that is 
a viable idea. I think it is a bad idea to think about 
selling----
    Mr. Simpson. Well, yeah.
    But you are saying that there would be no interest in the 
United States for it.
    Secretary Moniz. So the question is, in the United States--
what I said--and this was before any discussion of changing 
from MOX--there did not seem to be a high degree of enthusiasm.
    Mr. Simpson. Did your own red team suggest that there 
wouldn't be an issue with trying to sell it, that there would 
probably be demand for it, that that wouldn't be an issue?
    Secretary Moniz. I would say on neither side. They neither 
said that it couldn't be sold, nor did they kind of endorse the 
idea that it could easily be sold.
    Mr. Simpson. I have to tell you--so they refused to kind of 
participate in that question.
    Secretary Moniz. Well, it is as you have said; it is hard 
to know. I mean, now, what we are saying is we could be talking 
2040 before the first fuel is available. So it is a long way 
off.
    Mr. Simpson. You know, in all honesty, this is what makes 
it so hard for us, to hear from legitimate sources two stories 
that are totally opposite.
    I am not a nuclear engineer; I am a dentist. And here I am 
trying to solve some problems, moving forward politically, when 
I am hearing different stories from both sides from legitimate 
people that I respect on both sides. It is like everybody is 
looking at it from their perspective and that is it. Anything 
that this side brings up must be just bull, and the same on the 
other side.
    Consequently, I am sitting here, going, okay, what do we 
do? We move forward so that in 2 or 4 or 6 years, when you and 
I are having a scotch in the bar wondering what we did while we 
were here, the Congress at that time is trying to figure out 
how do they move forward.
    Secretary Moniz. Well, again, we believe that, again, the 
dilute and dispose is a much morestraightforward--technically, 
certainly, a much more straightforward path and a much faster one.
    Mr. Simpson. Probably cheaper.
    Secretary Moniz. Huh?
    Mr. Simpson. Probably cheaper.
    Secretary Moniz. And a lot cheaper.
    Mr. Simpson. But there are questions out there. And while 
everybody says, oh, the Russians will go along with this, you 
know, you have a lot more confidence in the Russians' agreement 
with us than I do.
    Secretary Moniz. I have not made that statement, that they 
will go along with it. I just think that we need to----
    Mr. Simpson. They are disposed to--they are open to it.
    Secretary Moniz. We have had very good discussions. They 
are open to this discussion. But we have not launched the 
process in a formal way, so----
    Mr. Simpson. A lot of times, in a discussion with my wife 
on something that we disagree on, she is open to a discussion; 
it is how much it is going to cost me, and vice versa.
    I don't mean to say that. I am in trouble now. I am not 
going home this weekend.
    Secretary Moniz. I will refrain from commenting on that.
    Mr. Simpson. Mr. Secretary, at the United Nations climate 
change conference over the summer, the President announced 
Mission Innovation, a multiyear plan to double clean energy 
research over the next 5 years.
    After analyzing how this is proposed to occur, I was 
disappointed that Mission Innovation favors the EERE account 
when compared to other energy technologies. When comparing 
funding classified as Mission Innovation with last year's 
enacted level, fossil energy remains relatively flat, nuclear 
energy gets a 7-percent cut, domestic fusion gets a 90-percent 
cut, and EERE gets a 49-percent increase.
    The math doesn't seem to add up. This isn't an ``all-of-
the-above'' initiative. This is another attempt of the 
Department to increase EERE accounts. I like EERE. This is not 
being critical of EERE, but not at the expense of other basic 
science and applied energy research.
    If the goal is to double clean energy research and 
development, why don't all Mission Innovation funding accounts 
receive proportional increases?
    Secretary Moniz. Well, obviously, the different accounts 
were looked at different ways, but I would emphasize--so if you 
take fossil energy--and note, by the way, that, again, it is 
not only the fossil energy R&D account that we should be 
talking about. There are also roughly $5 billion of tax credits 
that I talked about for CCS. So, there are other elements. 
There are elements of fossil in ARPA-E. There are elements of 
fossil in Science. So it is a much broader picture.
    Within the FE account, a major shift was done, I would say, 
towards more innovation for new technologies because, frankly, 
we kind of took decisions in terms of the large-scale 
demonstration projects.
    As you know, there is a big shift of funds there with 
some--there are some projects going along great, either 
operating or close to it. The Air Products project has been 
operating for 3 years. They have cut 3 megatons, roughly, of 
CO<INF>2</INF> underground for EOR. The ADM ethanol project 
will be starting up I think in, like, a month time scale. The 
Petra Nova coal plant, post-combustion plant, that will be 
starting up in--end-of-the-year kind of time scale.
    So there are some, but there are others that just didn't 
close for whatever reason--HECA and FutureGen. Summit did not 
get its funding. So we have reoriented to, for example, in the 
budget, proposing to move forward with a set of, you know, 
smallish but important pilot projects to look at more novel 
capture approaches that may significantly reduce costs, so 
really getting into chemical looping, into oxy-combustion, et 
cetera. So I think that there is, actually, a heightened focus 
on innovation within that budget.
    I also just would repeat something that Congresswoman 
Kaptur raised, that while it sits in the EERE budget--and maybe 
we can discuss how that should be approached--these regional 
partnerships are not restricted--our view is that they are not 
restricted to EERE subjects.
    So I think it is a little bit more nuanced than what you 
said, but there is no doubt there is a large increase in the 
EERE.
    Mr. Simpson. I would tell you, if they are parked within 
EERE----
    Secretary Moniz. Yeah.
    Mr. Simpson [continuing]. And there is no authorizing 
legislation for them specifically, then they are subject to the 
restraints of EERE.
    Secretary Moniz. OK.
    Mr. Simpson. There would have to be separate language----
    Secretary Moniz. All right. Well, then that would be 
something we would love to work with the Committee on. Yeah.
    Mr. Simpson. The current initiative in the private sector 
called Breakthrough Energy Coalition is being spearheaded by 
Bill Gates that you have mentioned to advance the public 
research pipeline and commercialization of these energy 
research investments.
    The Department and the national labs have been trying to 
improve technology transfer issues for years. We have talked 
about it on this committee as long as I have been on this 
committee. How is this a different effort?
    The Department has many programs that seek to usher in 
technology developments through the difficult process toward 
commercialization. How will the Breakthrough Energy Coalition 
efforts complement the Department's current commercialization 
efforts in the Loan Programs Office and ARPA-E?
    Are we just adding a new program on top of things that 
already exist within the Department of Energy that we have been 
trying to do that aren't working well? If so, why aren't we 
transferring out of those into something new?
    Secretary Moniz. Well, I think there are two different 
issues here, Mr. Chairman.
    First, we already discussed a little bit earlier some of 
the new approaches with the Office of Technology Transitions 
and the Technology Commercialization Fund, which, again, is 
something that Congress asked for over 10 years ago that we are 
moving.
    Now, the Breakthrough Energy Coalition, I really want to 
emphasize, of course, it is not governmental in any sense. It 
is clearly private investors, in fact, from 10 countries. And 
they are certainly not looking just to look at technologies 
coming out of the laboratories. I mean, for example, the ARPA-E 
track record, I think, is exceptional. They have 36 companies 
that have spun out already. Those are not typically--I mean, 
some may be, but they are not typically out of the labs. They 
are awards that went to universities, to small companies, et 
cetera.
    And the issue is that we are going to have to up the game. 
And part of the Energy Investment Center that we did in the OTT 
is about enhancing the transparency and the ability of external 
investors to see into what we are doing at the labs--for the 
labs specifically.
    And I want to emphasize it is not only the Breakthrough 
Energy Coalition investors. We are not giving them a 
proprietary right to this. I think they are going to be very 
active in this. That is kind of the idea. There may be some 
joint technology roadmapping exercises. But our job is to 
increase the transparency to the entire investment community to 
be able to come in and, you know, see what is most promising 
and move it out.
    Mr. Simpson. OK.
    Let's talk about the lab commission results for just a 
minute. Last year, at this hearing, we talked about what the 
Department is doing to repair what the lab commission deemed a 
broken trust between the Department and the national 
laboratories. Uneven levels of risk management between DOE 
headquarters and field offices was identified as one of the 
causes of this broken trust.
    Since the lab commission report was published, what has the 
Department done to better align oversight activities between 
headquarters and field offices? And what about the field 
offices and the labs? Do you see areas where this relationship 
could be improved?
    Secretary Moniz. Certainly. And, of course, one of the 
things that we did do was submit (to the Congress), I think it 
was just last week, a very detailed response to the CRENEL 
commission, I think is the one you are referring to, just as we 
had earlier for the Augustine-Mies commission for the NNSA.
    I think we are well on our way toward addressing many of 
the issues. There are a couple of areas where we have met with 
the chairs of the commission and we don't fully agree with the 
recommendation, but by and large we do.
    I would also note--and I will come back to your question 
specifically that in my cover letter for the report I think I 
laid out something of what the vision is for the national labs 
and the Department relationship.
    But I also noted that I think, since the end of the cold 
war, there is no doubt that a transactional approach has kind 
of grown in, in my view too much, relative to a more kind of 
strategic partnership. And I think, as you know, since I have 
come to this office, I have been working on that pretty hard, 
and I think we have made some real progress. We are not there.
    And, also, there are issues of something raised earlier, in 
effect, about how transitions occur, and then we see what goes 
on. And that is certainly an issue that the lab directors are 
very focused on--how do we institutionalize things that have 
worked and improved issues.
    Now, I think the issue with the field office, of the site 
offices, I think there has been some streamlining there, 
certainly, in terms of the reporting relationships. When all is 
said and done, it depends on the people, to be honest, the 
people in the program office, the people in the field, and how 
they work with the lab or the site.
    So, I think we have streamlined. We have taken areas--
security, for example. Some years back, also in 
counterintelligence, which is obviously especially important 
for the weapons labs, very, very different reporting 
relationships. The NNSA has done a reorganization internally to 
give a clearer shot, straight to the senior levels of NNSA for 
the labs.
    So I think we are working it, and I think it is improving. 
But, you know----
    Mr. Simpson. OK.
    The commission recommended that DOE conduct better 
oversight of the indirect cost tools at its national 
laboratories--that is, overhead costs of operating 
chargedproportionally across the board to all programs, in contrast to 
direct programs costs that are directly appropriated by Congress for a 
particular purpose, such as funding for a certain kind of energy 
research or a construction project. These costs are significant and can 
cost over 50 percent of the estimated cost of a particular program, in 
many cases.
    Do you agree with the commission's findings that the DOE 
programs should be tracking the indirect overhead costs of the 
labs? And is DOE taking any action at all to establish better 
accountability of these costs?
    Secretary Moniz. First of all, of course, we do track the 
indirect costs. And we had a long discussion, I might say, with 
the CRENEL co-chairs about this. This is one area where we are 
trying to work through how we respond to that recommendation.
    The problem is that, in contrast to universities, in 
universities there is kind of a pretty common indirect cost 
structure. And, of course, largely, it is because there is a 
common auditor for anyplace that has Federal funding. Almost 
all universities have one auditor, coming out of HHS. And there 
are, from OMB rules, because of the Federal funding there, 
specific caps in terms of part of the indirect cost pool, et 
cetera.
    Now you come to our laboratories and the M&O contract 
structure, and the indirect cost structures at different 
laboratories are quite different. They do not have the same 
structure. And it is not that one is better than the other; 
they are just different ways of assigning costs directly or 
indirectly. They are all audited, right? But there is no kind 
of, one magic number that we can say for all the laboratories.
    So we are interested, absolutely interested, in 
transparency. I think, as the commission did, we need to at 
least break out our evaluations for different groups of 
laboratories. Like, the defense labs are different from the 
science labs, are different from the energy labs. Even in the 
science labs, the multipurpose science labs, like Oak Ridge, 
very, very different from a Jefferson Laboratory, single-
purpose laboratory. So we probably need, like, four different 
buckets. And we need to find, then, some way of comparing true 
costs that go into an indirect cost idea, pool, and bring those 
together and be able to present those to the Congress and to 
others.
    But it is not quite as simple. That is one of the areas 
where we said explicitly, look, you know, we can't just take 
that as it is. In addition, there are proprietary--because 
these are contracts often with a private sector company that is 
using its own corporate systems in terms of the accounting 
structures in the laboratory. So it is an issue.
    Mr. Simpson. OK.
    The laboratory commission also recommended that DOE change 
its accounting rules for the program, further providing the 
LDRD program relief from overhead costs that are charged to 
other R&D programs at the labs.
    Do you agree with the recommendation to unburden the LDRD 
program from paying laboratory overhead costs?
    Secretary Moniz. I think the question is--I think usually 
it is phrased as--well, the recommendation, I think, 
effectively was, like, a 6-percent cap unburdened or maybe an 
8-percent cap burdened. It is a question of whether the burden 
is in or not and what the number is.
    Mr. Simpson. Yeah.
    Secretary Moniz. Because what they were recommending is to 
have a real 6 percent, especially for the weapons labs, to be 
able to spend on program.
    Mr. Simpson. Do you make a recommendation in that regard?
    Secretary Moniz. No.
    Mr. Simpson. Let me----
    Secretary Moniz. Well, let me just say that I think the 
driver of that recommendation is--because it can be either way. 
I mean, you know, either way is fine, I think. But I think 
their driver of the critical importance of LDRD I fully 
support.
    LDRD has just led to tremendous amounts of innovation, new 
directions that become important. And, historically, the 
weapons labs have needed the higher amount, frankly, often as 
part of their recruitment tools. A lot of young people come in, 
post-docs, beyond post-docs, through LDRD programs, and then 
over time their careers go into, for example, the weapons labs, 
the weapons programs.
    Mr. Simpson. Right.
    By May 2, you are supposed to make a decision that you are 
going to continue U.S. participate in ITER. I know it is not 
May 2 yet--did I say May 2?
    Secretary Moniz. Yes.
    Mr. Simpson. I know it is not May 2 yet, so I won't ask for 
your recommendation. But we will write our bill before May 2, 
so I hope we can have some input from you before then about 
what direction you might be heading as we try to put our bill 
together probably early next month maybe, hopefully. The 
sooner, the better. Because we want to get this bill done. We 
would actually like to have you have an appropriation bill by 
October 1.
    Secretary Moniz. That would be nice.
    Mr. Simpson. Novel concept, huh?
    Secretary Moniz. That would be good.
    Mr. Simpson. Yes.
    Other questions?
    Secretary Moniz. Well, on that, by the way, Mr. Chairman, 
okay, we will stay in touch. I just don't know to what extent 
we will have sufficient information in that early April 
timeframe. But we will at least touch base on it.
    Mr. Simpson. OK.
    Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    I was thinking, Mr. Secretary, as you were testifying, it 
is so wonderful to have your new energy at the Department of 
Energy. You really do inspire people, including the people at 
the Department of Energy and people outside the Department of 
Energy.
    I can remember former Secretaries who were--maybe they 
didn't have your high acuity, but they were ponderous and many 
times indecipherable and not very affable. And I think energy 
was harmed, the goal of energy independence for the country and 
of innovation was harmed. You really do bring a spark to it 
that is really refreshing. So thank you.
    Now I will ask you some hard questions after that. I am 
going to ask you for some ballpark estimates here. For Yucca 
Mountain and for MOX, just approximately, how much money was 
already spent on those two projects by our government in the 
billions? If you want to just total the two of them up for me, 
approximately?
    Secretary Moniz. MOX I think has been approximately $5 
billion.
    Ms. Kaptur. OK.
    Secretary Moniz. On Yucca, I would have to really look, but 
I am guessing--anybody know? 12ish, maybe.
    Ms. Kaptur. Something like that.
    Secretary Moniz. I would have to get back to you for the 
record on that.
    Ms. Kaptur. So between $15 and $20 billion.
    Secretary Moniz. Well, there remains something--again, I 
don't have the numbers at hand. But I think there remains 
something like $25 billion in the waste fund. But I think, in 
terms of expenditures, again, I will get back, but it is 
certainly less than that.
    Ms. Kaptur. OK. That is a lot of money.
    And let me ask you, on a scale of 1 to 100, for Yucca 
Mountain, if you had to lay odds at a betting table that that 
would ever materialize, would you want to take a guess on a 
scale of 1 to 100? Would you put your chip on any number?
    Secretary Moniz. No, but I would say that we continue to 
say we think it is unworkable because obviously, there is very, 
very strong resistance in the State. And that goes back to the 
need for a consent-based process.
    And I might say that, of course, in this fiscal year 2017 
request, we have asked for an increase in the nuclear waste 
arena precisely to get the consent-based process moved to the 
next stage.
    Ms. Kaptur. And what about MOX? Would you put any chip down 
on any number from 1 to 100--100 being yes, it is going to 
happen; no, it isn't?
    Secretary Moniz. Well, no, I am not going to--again, I am 
not going to put a number in, but just to say again that we 
believe that for MOX to work we have to have appropriations on 
the order of a billion dollars a year for the whole program for 
a lot of decades.
    And, certainly, in our current budgeting environment, it 
is, by demonstration, not feasible. And that is why we went to 
the dilute and dispose, which is much less expensive, much 
faster. It raises the issue the chairman has raised. I mean, 
you know, that is a fact.
    Ms. Kaptur. Well, I raise this issue just to raise 
consciousness within the Department about the process that we 
follow and the amount of dollars that have been expended. I 
have never served on a committee where----
    Secretary Moniz. Yes.
    Ms. Kaptur [continuing]. Anything like this has ever 
happened.
    Now, let me turn to Portsmouth for a second. And looking 
toward the future, could you clarify what your budget request 
actually does both in the discretionary and mandatory funding 
relative to Portsmouth? What is the goal for Portsmouth?
    Secretary Moniz. Well, the goal is, for Portsmouth and 
Paducah and finishing Oak Ridge, as well, the goal is to go 
through the D&D and be able to, you know, have those sites used 
in a different way.
    Now, with the proposed budget, we would, if anything, 
increase somewhat the D&D at Portsmouth, in particular, by also 
moving forward with the disposal cell that we need in addition 
to the actual D&D work.
    Now, as discussed earlier and the chairman noted, we have 
proposed that $674 million be used out of the authorized 
mandatory USEC fund, which, again, I repeat, is one of three 
funds of relevance to this that are already in the treasury, if 
you like, totaling almost $5 billion.
    Now, we recognize there is a challenge there. We did offer 
an offset for that. It is not one that is universally 
applauded. But the reality is, when the fee was stopped some 
years back, that was at a time when the actual dimensions of 
the cost of cleanup were not known. And now we think we have 
got, like, $22 billion to go for the UE D&D. And, now we know 
that. And the original principle was that the users of the 
service ultimately paid for the cleanup as well.
    So, anyway, we are putting that forward. I mean, if there 
are other offsets, fine. But, again, that would be about a 
quarter-of-a-mil charge. But, clearly, if, as the chairman 
suggested, for some reason that were not to be done, then, that 
is a big hole that has to be filled somehow.
    Ms. Kaptur. Well, I wanted to comment there. You know, if 
you were to try to explain to the people who live in the 
places, the counties, the highest unemployment counties in 
Ohio, what the future of that site is, how simply could one 
explain it to them?
    And then my second question really is, let's say that--I 
mean, everything has a useful life, even human beings, and we 
have to face the inevitable. If, in fact, the inevitable has to 
be faced at Portsmouth at some point--and we have people that 
live there--what thoughts are being given to--I notice that you 
have a proposal for another clean energy manufacturing 
institute. I don't quite understand what is being done at all 
the other ones. But is there something that can be done that is 
transformative for the people that are involved there that 
might be able to be put in place ahead of time?
    Secretary Moniz. Well, so, again, we are using Portsmouth 
as an example. First of all, there remains a very substantial 
D&D work, which does take a pretty big workforce, and that will 
go on for some time.
    Now, in terms of alternative--look, with all of our sites, 
if we can help with, you know, generating more forward-looking 
activities, I mean, you know, that is really great, because 
these are communities we have worked with for a long time.
    At Portsmouth, one of the obvious possibilities, where we, 
again, run into a current resource challenge, is that the 
large, specially designed building for the event centrifuge 
would remain a place where you would think we would eventually 
build a national security--so-called national security train 
for enriched uranium.
    But, again, it is a few billion dollars to do that. And so, 
in the meantime, what we do is--and we have even identified 
additional material--is that we use other unobligated materials 
to make the nuclear fuel that can be used in a reactor to make 
tritium for our weapons program.
    But, eventually, we are going to need a domestic U.S. 
technology enrichment facility. The ACP is the candidate at 
hand. The building is unique in being designed to handle those 
huge centrifuges. But, right now, you know, it is deferring it 
rather than putting up the several billion dollars to build 
that facility.
    Ms. Kaptur. I know this isn't in your wheelhouse, but when 
I think about our chairman, Mr. Rogers, and all the work he has 
done for the Appalachian Regional Commission, I think about the 
training that we need for certain types of fields and 
professions, and I look at those counties, though I don't 
represent them--there is a former mayor of Youngstown, 
Williamson I think, that the President appointed, relative to 
automotive communities that were bottomed out.
    There may be some consortium that can be put together, I am 
just suggesting, to kind of look at over the next 3 years, 5 
years, 10 years, and the people involved, so that we don't get 
the kind of depressed, hopeless scenario that I have seen in so 
many other places. So I just wanted to put that on the record.
    Secretary Moniz. And as we discussed the other day, I 
suggested that we follow through in having the head of our jobs 
program----
    Ms. Kaptur. Yes.
    Secretary Moniz [continuing]. Get together with you to 
compare ideas.
    Ms. Kaptur. That would be welcome.
    Mr. Chairman, I just have a final question on Ukraine, 
switching gears here. Ukraine operates 15 reactors at 4 nuclear 
power plants, most of which came online before the Chernobyl 
disaster. Kiev recently announced it requires an estimated $1.7 
billion to extend the life of its fleet of Soviet air and 
nuclear power reactors and bring them up to current Western 
standards.
    Are there any activities in your budget request to support 
these goals? Or do you know of any such goals that may be set 
by other countries? And how difficult do youbelieve it is going 
to be to upgrade their aging nuclear facilities?
    Secretary Moniz. To be honest, I can't say I am familiar 
with their upgrade needs. We can look into that. Certainly, we 
remain involved with Ukraine in terms of their energy security 
issues, helping them devise their plans going forward. So I 
will check with those people to see if they can answer that 
question.
    Ms. Kaptur. I would really appreciate it if they could get 
back with me.
    Secretary Moniz. OK.
    One of the things that we did do, which was not a money 
issue, we kind of helped to facilitate having Westinghouse do 
fuel for those Soviet-era reactors. So Westinghouse has now 
done some fueling for those reactors.
    Ms. Kaptur. Thank you, Mr. Secretary.
    Thanks, Mr. Chairman.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Mr. Chairman, thank you.
    Mr. Secretary, quickly, I know we are running short on 
time, but just in terms of the vision for distributed energy--
you talked about this earlier a bit. But in terms of the real 
microscale, the homeowner, if you will, on the horizon, because 
of the increasing efficiency in battery technology and the fall 
in prices and, I assume, the expanding expertise, such as in 
the installation of solar, are we seeing a rapid move--or do 
you anticipate a rapid move toward a rethinking of the entire 
energy infrastructure in the country so that, down to the micro 
level, the homeowner, in effect, becomes an energy farm?
    Now, earlier this year, I lost an air conditioning unit. 
There was a mouse in it. I called a technician. He replaced the 
capacitor. The thing started to smoke--the air conditioner, not 
the mouse.
    But what this led me to was a long process by which I 
installed geothermal in the house. That was made possible, of 
course, by tax credits, low-interest loan program, rebates from 
the local electric company, and the----
    Secretary Moniz. A heat pump?
    Mr. Fortenberry. Geothermal.
    Secretary Moniz. Geothermal heat pump.
    Mr. Fortenberry. Yes. So, glad to do it. The return on 
that, if you discount the cost of the air conditioner, probably 
the payback period is minimally 6 years, maximally 10 years.
    Now, I have the ability to do that. Again, this is 
complicated, though, and it takes up resources as well. But it 
is--I purposefully did it because I wanted to move my own 
personal home in that direction. What do you see on the horizon 
on this regard?
    Secretary Moniz. Frankly, I think very much what you said. 
I think that storage at various scales, from the grid to the 
endpoint, to the consumer, I think, is going to come faster 
than people think. And that is pretty transformative.
    Mr. Fortenberry. Is that just battery?
    Secretary Moniz. Yeah, I am thinking battery. Yes. It could 
be other things, but battery.
    And I think one of the huge challenges is--we are seeing it 
with solar and net metering, but a broader issue is that, as 
the technology enables much more of this distributed 
generation, much more efficiency, much less demand, et cetera, 
there is a very fundamental utility business model of the 
future----
    Mr. Fortenberry. Oh, I have heard about it. I mean, there 
are legacy costs here that are huge that are still being 
carried over forward in the future, and the transition is 
difficult.
    Secretary Moniz. Right. And then they will be distributed 
generators who are still grid-connected. Then there will be 
those who go off the grid. And how do you then allocate the 
fixed costs for the system.
    So I think we have interesting technology challenges, but 
the technology solutions are going to lead to other kinds of 
challenges. And they are already. We are seeing the beginning 
of it.
    Mr. Fortenberry. Yes.
    I am going to yield to my colleague Mr. Fleischmann. I 
think he has one final question.
    Mr. Fleischmann. Thank you.
    Mr. Fortenberry. Is that all right, Mr. Chairman?
    Mr. Fleischmann. Thank you.
    Mr. Secretary, on an interesting different subject, as you 
know, I am a vocal advocate in the fight against cancer. I lost 
my mother at a very early age. As part of the privilege of 
being on the full Appropriations Committee, I also sit on the 
Labor, Education, Health and Human Services Subcommittee, which 
funds NIH. And I got to thinking the other day, with the 
administration's Cancer MoonShot initiative, perhaps a role for 
the Department of Energy, not exclusive to our great 
supercomputing research and availability, but inclusive of 
that.
    Does the Department of Energy see a role in the fight 
against cancer in the MoonShot initiative, sir?
    Secretary Moniz. Yes, indeed. And sorry to hear about your 
mother. But we think we can make a big push on this cancer 
initiative, and we think DOE can have a very important role.
    Let me make a few points, if I may.
    First of all, that has been recognized in the 
administration, as I am one the Cabinet members on the Vice 
President's group OK?
    Mr. Fleischmann. Thank you.
    Second, long before the Cancer MoonShot--well, not long 
before; it depends. Last June, let's say, Mr. Lowy, the acting 
director of the National Cancer Institute, came to see us, 
asking for our help. And the driver was principally 
computation, because cancer is a big data issue.
    So we, with some of the labs and some of the NIH people, 
put together, at the end of the year roughly, three small pilot 
programs that addressed different parts of the cancer issue 
that we want to go and execute, frankly, as part of our normal 
business.
    Let me emphasize--because mission issues always come up. 
Let me emphasize: Radiation, biology, and cancer has been part 
of the Department of Energy's work since the Atomic Energy 
Commission because of the issues of radiation from nuclear 
tests, et cetera, and nuclear stuff. The Genome Project, in 
some sense, evolved from that history, using our special 
capacities.
    So, in that context, we are putting together a concept that 
will marry unguided machine learning at very large scale, at 
peta scale, with big data analytics and the modeling and 
simulation capacity that has always been a distinguishing 
feature at the labs. And those three tools will come together 
in looking at the cancer issue.
    What is interesting is our computer guys are excited, 
because the cancer problem is going to lead to different kinds 
of questions and architectures in addressing the cancer problem 
that they think will ultimately help on the weapons program. So 
it is kind of interesting.
    But the answer is yes.
    Mr. Fleischmann. Thank you. I wish you the best in those 
endeavors, sir.
    Secretary Moniz. Thank you.
    Mr. Fleischmann. Mr. Chairman, I yield back.
    Mr. Simpson. Thank you, Mr. Secretary. We appreciate you 
being here today and taking such an extraordinary amount of 
time with the committee and answering our questions. We look 
forward to working with you to meet the challenges we face in 
this budget so that we can put together a budget that will move 
the Department of Energy forward.
    Thank you. The hearing is adjourned.
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    				[all]
</pre></body></html>
